<html>
<title> - HEARING ON H.R. 351, H.R. 1714, H.R. 2136, AND H.R. 2283</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        HEARING ON H.R. 351, H.R. 1714, H.R. 2136, AND H.R. 2283

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

     H.R. 351, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO MAKE 
APPROPRIATE IMPROVEMENTS TO A COUNTY ROAD LOCATED IN THE PICTURED ROCKS 
NATIONAL LAKESHORE, AND TO PROHIBIT CONSTRUCTION OF A SCENIC SHORELINE 
    DRIVE IN THE NATIONAL LAKESHORE. H.R. 1714, TO PROVIDE FOR THE 
 ACQUISITION OF THE PLAINS RAILROAD DEPOT AT THE JIMMY CARTER NATIONAL 
 HISTORIC SITE. H.R. 2136, TO DIRECT THE SECRETARY OF THE INTERIOR TO 
   CONVEY, AT FAIR MARKET VALUE, CERTAIN PROPERTIES IN CLARK COUNTY, 
  NEVADA, TO PERSONS WHO PURCHASED ADJACENT PROPERTIES IN GOOD FAITH 
   RELIANCE ON LAND SURVEYS THAT WERE SUBSEQUENTLY DETERMINED TO BE 
INACCURATE. H.R. 2283, TO EXPAND THE BOUNDARIES OF ARCHES NATIONAL PARK 
     IN THE STATE OF THE UTAH TO INCLUDE PORTIONS OF THE FOLLOWING 
   DRAINAGES, SALT WASH, LOST SPRING CANYON, FISH SHEEP DRAW, CLOVER 
   CANYON, CORDOVA CANYON, MINE DRAW, AND COTTONWOOD WASH, WHICH ARE 
CURRENTLY UNDER THE JURISDICTION OF THE BUREAU OF LAND MANAGEMENT, AND 
 TO INCLUDE A PORTION OF FISH SHEEP DRAW, WHICH IS CURRENTLY OWNED BY 
                           THE STATE OF UTAH.

                               __________

                  SEPTEMBER 16, 1997, WASHINGTON, DC.

                               __________

                           Serial No. 105-51

                               __________

           Printed for the use of the Committee on Resources


                      U.S. GOVERNMENT PRINTING OFFICE
 45-531 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas

                     Allen Freemyer, Staff Director
            P. Daniel Smith and Todd Hull Professional Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Month, Day, 1997....................................     1

Statements of Members:
    Bishop, Jr., Hon. Sanford D., a Representative in Congress 
      from the State of Georgia..................................     5
        Prepared statement of....................................     6
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     9
        Prepared statement of....................................    11
    Ensign, Hon. John E., a Representtive in Congreess from the 
      State of Nevada, prepared statement of.....................     9
    Gibbons, Hon. James A., a Representative in Congress from the 
      State of Nevada............................................     7
        Prepared statement of....................................     8
    Hansen, James V., a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................     3
        Prepared statement of....................................     4

Statements of witnesses:
    Galvin, Denis, Deputy Director, National Park Service........    14
        Prepared statement of....................................    16
    Groene, Scott, Issues Director, Southern Wilderness Alliance.    32
        Prepared statement of....................................    33
    Millenbach, Mat, Deputy Director, Bureau of Land Management..    13
        Prepared statement of....................................    13
    Norton, Ed, Vice President--Law and Public Policy, National 
      Trust for Historic Preservation............................    30
        Prepared statement of....................................    31

Additional material supplied:
    Lumos, Rita, PI.S., City Surveyor, Las Vegas, Nevada.........    56
    Text of H.R. 351.............................................    38
    Text of H.R. 1714............................................    40
        Briefing Paper on H.R. 1714..............................    41
    Text of H.R. 2136............................................    43
        Briefing Paper on H.R. 2136..............................    47
    Text of H.R. 2283............................................    49



HEARING ON H.R. 351, TO AUTHORIZE THE SECRETARY OF THE INTERIOR 
 TO MAKE APPROPRIATE IMPROVEMENTS TO A COUNTY ROAD LOCATED IN 
    THE PICTURED ROCKS NATIONAL LAKESHORE, AND TO PROHIBIT 
   CONSTRUCTION OF A SCENIC SHORELINE DRIVE IN THE NATIONAL 
                           LAKESHORE.

    H.R. 1714, TO PROVIDE FOR THE ACQUISITION OF THE PLAINS 
   RAILROAD DEPOT AT THE JIMMY CARTER NATIONAL HISTORIC SITE.

 H.R. 2136, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONVEY, 
   AT FAIR MARKET VALUE, CERTAIN PROPERTIES IN CLARK COUNTY, 
 NEVADA, TO PERSONS WHO PURCHASED ADJACENT PROPERTIES IN GOOD 
     FAITH RELIANCE ON LAND SURVEYS THAT WERE SUBSEQUENTLY 
                  DETERMINED TO BE INACCURATE.

H.R. 2283, TO EXPAND THE BOUNDARIES OF ARCHES NATIONAL PARK IN 
  THE STATE OF THE UTAH TO INCLUDE PORTIONS OF THE FOLLOWING 
  DRAINAGES, SALT WASH, LOST SPRING CANYON, FISH SHEEP DRAW, 
CLOVER CANYON, CORDOVA CANYON, MINE DRAW, AND COTTONWOOD WASH, 
  WHICH ARE CURRENTLY UNDER THE JURISDICTION OF THE BUREAU OF 
 LAND MANAGEMENT, AND TO INCLUDE A PORTION OF FISH SHEEP DRAW, 
         WHICH IS CURRENTLY OWNED BY THE STATE OF UTAH.

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, Hon. James V. 
Hansen (chairman of the Subcommittee) presiding.

STATEMENT OF JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Hansen. Good morning. The Subcommittee on National 
Parks and Public Lands will come to order. Today the 
Subcommittee will receive testimony on the following bills: 
H.R. 351, H.R. 1714, H.R. 2136, and H.R. 2283.
    [Text of bills H.R. 351, H.R. 1714, H.R. 2136, and H.R. 
2283 may be found at end of hearing.]
    Mr. Hansen. The first bill we will hear is H.R. 351 
introduced by Congressman Bart Stupak of Michigan, which 
authorizes the Secretary of the Interior to make appropriate 
improvements to a country road located in the Pictured Rocks 
National Lakeshore, and to prohibit the construction of a 
scenic shoreline drive in that national lakeshore.
    The second bill we will hear is H.R. 1714, introduced by 
Congressman Sanford Bishop, Jr. of Georgia, which provides for 
the acquisition land underlying the Plains Railroad Depot at 
the Jimmy Carter National Historic Site.
    The third bill we will hear is H.R. 2136, introduced by 
Congressman John Ensign of Nevada, which directs the Secretary 
of the Interior to convey, a fair market value, certain 
properties in Clark County, Nevada, to persons who purchased 
adjacent properties in good faith reliance on land surveys that 
were subsequently determined to be inaccurate.
    And finally, we will hear testimony on H.R. 2283, 
introduced by Congressman Chris Cannon of Utah, which expands 
the boundaries of Arches National Park in the State of Utah to 
include an additional 3,100 acres, including Lost Spring Canyon 
and other lands currently managed by the Bureau of Land 
Management.
    The Subcommittee had previously scheduled H.R. 2186 to be 
heard today, but at the request of its sponsor, Congresswoman 
Barbara Cubin of Wyoming, the bill has been postponed until a 
later date.
    We look forward to the testimony from our colleagues this 
morning.
    [The prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good Morning. The Subcommittee on National Parks and Public 
Lands will come to order.
    Today the subcommittee will receive testimony on the 
following bills: H.R. 351, H.R. 1714, H.R. 2136, and H.R. 2283.
    The first bill we will hear is H.R. 351, introduced by 
Congressman Bart Stupak of Michigan, which authorizes the 
Secretary of the Interior to make appropriate improvements to a 
county road located in the Pictured Rocks National Lakeshore, 
and to prohibit the construction of a scenic shoreline drive in 
that national lakeshore.
    The second bill we will hear is H.R. 1714, introduced by 
Congressman Sanford Bishop, Jr. of Georgia, which provides for 
the acquisition of the land underlying the Plains Railroad 
Depot at the Jimmy Carter National Historic Site.
    The third bill we will hear is H.R. 2136, introduced by 
Congressman John Ensign of Nevada, which directs the Secretary 
of the Interior to convey, at fair market value, certain 
properties in Clark County, Nevada, to persons who purchased 
adjacent properties in good faith reliance on land surveys that 
were subsequently determined to be inaccurate.
    And finally, we will hear testimony on H.R. 2283, 
introduced by Congressman Chris Cannon of Utah, which expands 
the boundaries of Arches National Park in the State of Utah to 
include an additional 3,100 acres, including Lost Spring Canyon 
and other lands currently managed by the Bureau of Land 
Management.
    The Subcommittee had previously scheduled H.R. 2186 to be 
heard today, but at the request of its sponsor, Congresswoman 
Barbara Cubin of Wyoming, the bill has been postponed until a 
later date.
    We look forward to the testimony from our colleagues this 
morning. I will recognize each of you for the explanations of 
your bills following the opening statements or remarks from 
Subcommittee Members.
    I recognize my distinguished colleague, Mr. Faleomavaega of 
American Samoa, the Ranking Member of the Subcommittee.

    Mr. Hansen. I will recognize each of you for the 
explanation of your bills following the opening statements or 
remarks from Subcommittee Members.
    I would recognize my distinguished Ranking Member from 
American Samoa, but I do not see him sitting here, so maybe we 
will just pass on that for right now, and I will go to the 
distinguished Gentleman from Nevada, Mr. Jim Gibbons.
    Mr. Gibbons. Well, thank you, Mr. Chairman, but let me just 
ask a procedural question. Are we dealing with H.R. 2136 at 
this time? Is that your intent?
    Mr. Hansen. Pardon me? Excuse me, again, please?
    Mr. Gibbons. Which bill are we dealing with at this time?
    Mr. Hansen. We will take all four of these pieces of 
legislation. We will start out with our colleagues at the table 
after the opening remarks, and I guess anyone after that on 
Panel II and Panel III can speak to any one of these bills.
    Mr. Gibbons. All right, I do not have any opening statement 
at this time, Mr. Chairman.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. I have no opening statement.
    Mr. Hansen. Fine, we will move right along then. We welcome 
our two colleagues. We appreciate your being with us. Bart, we 
will start with you, and then Sanford following. Is that all 
right?
    Mr. Stupak. Fine.
    Mr. Hansen. The time is yours.

STATEMENT OF THE HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, and thank for the 
opportunity to testify today. You adequately outlined my bill, 
H.R. 351, which basically says back in 1966, when Congress 
created the national Pictured Rocks National Lakeshore, they 
said that there would be built a scenic roadway along Lake 
Superior.
    The cost to make this road today is $13.4 million. Since 
1966, the Park Service has relied on H-58, which is a county 
road. County Road H-58 has not been upgraded. It has been in 
use for a long time. That has always been the access road for 
the Pictured Rocks National Lakeshore. So the cost to build a 
new road is $13.4 million. The cost to upgrade and maintain H-
58 is $9 million. We save the taxpayers over $4 million without 
destroying and putting in a brand new road along Pictured Rocks 
National Lakeshore.
    This proposal that has been around for a Congress or two 
now has the support of U.S. Fish and Wildlife because of the 
negative impact upon the environment. It has the support of the 
Taxpayers for Common Sense, National Parks and Conservation 
Association, the Wilderness Society, Michigan Land Use 
Institute, and all of our local officials.
    Basically what happens here, H-58 runs 45 miles along the 
lake in Alger County, approximately 18 miles wide within the 
park. What we are asking this Committee to do is to approve my 
bill which says, ``All right, we are not going to build this 
scenic roadway. Instead let us put our resources and upgrade H-
58, which has served us well for 31 years. So let us just use 
the money, $9 million, and upgrade it.''
    Now I know there are issues on jurisdiction because you are 
taking part of a county road which goes through the national 
park. The other part lies clearly within the jurisdiction of 
the county offi-

cials, and I must say, Mr. Chairman, that we have been working 
on this since I have introduced this legislation probably a 
year, almost 2 years, ago, with local officials in trying to 
urge some resolution and to get this matter resolved, and as 
always with everything here we come up with, ``Well, we cannot 
do this because of jurisdictional lines,'' or ``we cannot do 
that,'' and, of course, there is always the issue of money, but 
we are at the point now where H-58 is so bad and so badly 
deteriorated the County Road Commission is ready to close it, 
and if we close it no one is going to have access to this park.
    There have been times when this Committee, and with the 
help of Transportation, we have had emergency moneys to fix up 
a mile of the road which was washed away by Lake Superior. We 
have to address this issue. We had a good meeting yesterday 
with the park officials. I would ask that you move my bill so 
we can keep the pressure on so we can get to some resolution 
here. This has to get done. We cannot continue to come up with 
reasons why we cannot.
    There are creative ways. If we have good people on both 
sides of the issue working this, there is no reason why. I 
would ask that you move my bill so we can keep this process 
moving that would allow them to take the money in the park and 
put it in H-58, and upgrade it, and not build this new scenic 
highway or roadway along Pictured Rocks Lakeshore.
    And with that, Mr. Chairman, I would yield to any questions 
you may have.
    [The statement of Mr. Stupak follows:]

 Statement of Hon. Bart Stupak, a Representative in Congress from the 
                           State of Michigan

    Mr. Chairman, I appreciate the opportunity to testify 
before your committee today on H.R. 351, my legislation to 
allow for improvements to H-58, a county road in Pictured Rocks 
National Lakeshore. My bill would save the government money and 
save precious environmental resources.
    In my district, Pictured Rocks National Lakeshore attracts 
thousands of tourists each year for its scenic beauty 
overlooking Lake Superior. When the Pictured Rocks National 
Lakeshore was created in 1966, Congress adopted a provision 
requiring the National Park Service to build a new scenic road 
along the lake. Such a road would destroy acres of beautiful 
forest while costing an estimated $13.4 million. H.R. 351 would 
delete the mandate for the Park Service to build this new road 
and, instead, would allow the Park Service to upgrade an 
existing county road, H-58. This road, which runs through the 
park and provides adequate access to visitors, has served as 
the access to the Lakeshore for the past thirty years.
    The cost of upgrading the existing county road is estimated 
at roughly $9 million, with $5.6 million of the work lying 
within park boundaries. Compared to the $13.4 million required 
for building a new road, the Federal Government will save 
millions of dollars by passing H.R. 351. My proposal has the 
support of the U.S. Fish and Wildlife Service because of the 
proposed road's clearly negative impact on the environment. In 
addition to the Fish and Wildlife Service, this measure is 
supported by Taxpayers for Common Sense, National Parks and 
Conservation Association, the Wilderness Society, the Michigan 
Land Use Institute, local officials and residents of the area.
    The most important purpose of transportation in national 
parks is to provide a means of public access that protects park 
resources. My legislation will ensure that the public has 
reliable access to Pictured Rocks National Lakeshore, as well 
as protect and preserve precious natural resources and save the 
Federal Government money. I urge the Subcommittee to take up 
H.R. 351 as soon as possible.
    Thank you, Mr. Chairman, and the Subcommittee, for your 
time and consideration of this common sense proposal.

    Mr. Hansen. Thank you very much, appreciate it. The 
gentleman from Georgia, Mr. Bishop.

STATEMENT OF THE HON. SANFORD D. BISHOP, JR., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF GEORGIA

    Mr. Bishop. Thank you very much, Mr. Chairman, and my good 
friend, the Ranking Member, Mr. Faleomavaega, for holding the 
hearing today, and you also adequately outlined the mission or 
the purpose of my bill, which is H.R. 1714, which provides a 
legal fix that is needed by the Jimmy Carter National Historic 
Site in Plains, Georgia. Plains is located within my 
Congressional district, yet H.R. 1714 enjoys bipartisan 
support, the support of my colleague and fellow Georgian, Saxby 
Chambliss.
    Public Law 100-206, which created the Jimmy Carter National 
Historic Site and Preservation District, provided that the 
Plains Railroad Depot was to be included as a part of the site. 
The enabling legislation included authorization to acquire the 
Plains Railroad Depot ``by donation'' only. However, since 
Congress passed the law, we discovered that the Seaboard Coast 
Line Railroad, now CSX, does not have the legal authority to 
donate the approximate two-tenths of an acre under the depot. 
Simply put, while the Park Service owns the depot building 
structure, the Park Service does not own the land under the 
depot and the small surrounding tract.
    The railroad depot was the site of the former President 
Carter's campaign headquarters during the 1976 Presidential 
campaign, and it was built about 1890, and it was built on land 
that was deeded to the railroad in 1888 by a citizen of the 
town by the name of M.L. Hudson. The deed stipulated that 
should the railroad no longer require the land, that the lot 
upon which the depot is located would be returned to the heirs 
of the Hudson family.
    From the time of the establishment of the Historic Site in 
1987, the National Park Service has attempted to identify the 
Hudson heirs. A number of heirs have been identified, and those 
that were located support the inclusion of the depot within the 
historic site, but the Park Service does not believe that all 
the heirs who would have a potential claim have, in fact, been 
located in spite of many years of effort. This legislation 
would allow completion of the acquisition through a ``friendly 
condemnation'' proceeding.
    Because of the confusion over identification of the Hudson 
heirs, the depot has not been developed to its full potential 
as an element of the historic site, which is a very, very 
impressive and very moving site to visit. For example, the 
small parking lot is muddy during wet weather and it is dusty 
during dry weather. The depot is served by a sub-standard 
septic tank because hook up with the town sewer system has not 
been possible without a clear title. As a result, the depot is 
boarded up and it is unavailable for visitation, despite the 
fact that close to 40,000 school children visited the depot in 
1990.
    If this legislation is passed and signed into law, then the 
land could be acquired by purchase, and it would be effected by 
the Park Service depositing the appraised value into a court 
escrow account, so that if any heirs ever surface they could 
receive just compensation. This change is supported by the 
National Park Service, and the Park Service will testify today 
as to the need for the change, including the need to acquire 
the adjacent land to provide for handicapped access. The fiscal 
year 1998 budgetary impact of the $20,000 cost of this change 
has been deemed negligible, as reported by the Congressional 
Budget Office.
    It is my hope the Committee will act favorably on it and it 
will agree that once the title is clear, that the plans for the 
completion of the site are a true testament to the value of 
community volunteers. What was once a $512,000 plan using 
contractors has been reduced to less than a $50,000 investment, 
or one-tenth of that cost, through the use of local volunteers 
and a group of American history enthusiasts, the Carter 
Political Items Collectors.
    The Senate has already acted favorably by unanimous consent 
on the companion bill to H.R. 1714, so I hope that swift action 
by the Resources Committee and the full House can help this 
change become law before the end of the year.
    I would like to thank you, Mr. Chairman and Ranking Member, 
and I will be happy to entertain any questions that you might 
have, but basically this is a legal fix to clear up a 
questionable title to make sure that should any heirs who might 
want to make a claim potentially should surface in the future, 
that that would be a trust fund available to give them 
compensation based on the appraised value, which would be 
deposited in a court escrow account.
    [The prepared statement of Mr. Bishop follows:]

 Statement of Hon. Sanford D. Bishop, Jr. a Representative in Congress 
                       from the State of Georgia

    Thank you Chairman Hansen and my good friend Ranking Member 
Faleomavaega for holding this hearing today.
    H.R. 1714 would provide a legal fix needed by the Jimmy 
Carter National Historical Site in Plains, Georgia. Plains is 
located within my Congressional district, yet H.R. 1714 enjoys 
the bipartisan support of my colleague and fellow Georgian 
Saxby Chambliss.
    Public Law 100-206 which created the Jimmy Carter National 
Historic Site and Presentation District provided that the 
Plains Railroad Depot was to be included in the site. The 
enabling legislation included authorization to acquire the 
Plains Railroad Depot ``by donation'' only. However, since 
Congress passed that law, it has been discovered that the 
Seaboard Coast Line Railroad does not have the legal capacity 
to donate the approximate two tenths of an acre plot of land 
under and adjacent to the depot. Simply put, while the Park 
Service owns the depot building structure itself, the Park 
Service does not own the land under the depot and the small 
surrounding tract.
    The Plains, Georgia railroad depot was the site of former 
President Carter's campaign headquarters during the 1976 
Presidential campaign. The depot, built about 1890, was built 
on land deeded to the railroad in 1888 by a citizen of the town 
named M.L. Hudson. The deed stipulated that should the railroad 
no longer require the land, the lot upon which the depot is 
located would be returned to the heirs of the Hudson family.
    From the time of the establishment of the Historical Site 
in 1987, the National Park Service has attempted to identify 
the Hudson heirs. A number of heirs have been located and the 
agency reports that to date, those located support inclusion of 
the depot within the historical site. The National Park Service 
does not believe that all the heirs with a potential claim have 
been located in spite of years of effort. This legislation 
would allow completion of the acquisition through a ``friendly 
condemnation'' proceeding.
    Because of the confusion over identification of the Hudson 
heirs, the depot has not been developed to its full potential 
as an element of the historic site. For example, the small 
parking lot is muddy during wet weather and dusty during dry 
weather. The depot is currently served by a sub-standard septic 
tank because hook-up with the town sewer system has not been 
possible without clear title. As a result, the depot has been 
boarded up and unavailable for visitation, despite the fact 
that in 1990, close to 40,000 school children visited the 
depot.
    If H.R. 1714 is passed and signed into law, the land under 
the depot could be acquired by purchase. This would be effected 
by the Park Service depositing the appraised value into a court 
escrow account, so that if any heirs ever surface, they would 
receive just compensation. This change is supported by the 
National Park Service, and the Park Service will testify today 
as to the need for this change, including the need to acquire 
the adjacent land to provide for handicapped access. The fiscal 
year 1998 budgetary impact of the $20,000 cost of this change 
is negligible, as reported by the Congressional Budget Office.
    It is my hope the Committee will act favorably on H.R. 1714 
and agree that once the title is clear, the plans for the 
completion of the site are a true testament to the value of 
community volunteers: What once was a $512,000 plan using 
contractors has been reduced to less than $5O,000, or one-tenth 
of that cost through the use of local volunteers and a group of 
American political history enthusiasts, the Carter Political 
Items Collectors.
    The Senate has acted favorably by unanimous consent on the 
companion bill to H.R. 1714, so I feel confident that swift 
action by the Resources Committee and the full House can help 
this change become law before the end of the year.
    Thank you, Chairman Hansen, and I will entertain any 
questions the Committee might have.

    Mr. Hansen. Thank you very much. We will now turn to the 
Ranking Member, Mr. Faleomavaega, and then we will go to Mr. 
Gibbons for any opening comment he has on H.R. 2136, to Mr. 
Cannon on opening statements on H.R. 2283. The gentleman from 
American Samoa.
    Mr. Faleomavaega. Mr. Chairman, in the interest of time, I 
would like to request that my statement be made part of the 
record.
    Mr. Hansen. Without objection.
    [The prepared statement of Mr. Faleomavaega follows:]
    Mr. Faleomavaega. And with that, also I would like to thank 
both of our colleagues for being here this morning, the 
gentleman from Michigan and the gentleman from Georgia, for 
their testimonies, and I look forward to working with them as 
well as with you, Mr. Chairman, to see what we can do to move 
these pieces of legislation forward. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Gibbons.

  STATEMENT OF THE HON. JAMES A. GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you, Mr. Chairman. Thank you for giving 
us the opportunity to hear testimony on H.R. 2136, if that is 
your determination at this point in time.
    H.R. 2136 is a bill that directs the Secretary of the 
Interior to convey a fair market value to certain properties, 
on which were determined to be inaccurate surveys in Clark 
County, Nevada, to the city of Las Vegas, Nevada. The property 
consists of about 68.6 acres to be conveyed to the City at fair 
market value. The City will then convey to the property owners 
who were subject to the inaccurate land surveys.
    This bill would settle a longstanding property dispute 
between the city of Las Vegas, Nevada, and the Bureau of Land 
Management. The property dispute centers on the Decatur 
Boulevard alignment at the border of the cities of Las Vegas, 
Nevada, and North Las Vegas, Nevada. By way of background, this 
land was originally surveyed in the 1800's and there is 
evidence that proper protocol was not followed in setting 
survey monuments.
    Instead of stones, the early surveyors allegedly used small 
mesquite stakes to set the monument. The stakes disintegrated 
over time so that when the area was first privately surveyed in 
1953, the original corner monuments could not be established. 
For the next 20 years, various private surveys were conducted 
in the area and property corners were set; however, these 
different surveys varied by as much as 250 feet in an east-west 
direction.
    The Decatur Boulevard, by way of example, runs north-south, 
so 250 feet east-west is a substantial deviation along that 
property line.
    Nonetheless, property owners built homes and developed 
their land in good faith by relying on the private surveys, 
which at the time were the best available. A lawsuit was then 
filed on behalf of the property owners in order to quiet title 
to the individual properties. In October 1989 a district court 
issued a judgment which decreed quiet title to the property in 
question and established ownership at lines of current 
occupation.
    This legislation, Mr. Chairman, settles the dispute by 
conveying the land to the city of Las Vegas at fair market 
value established on an appraisal as of December 1, 1982. This 
appraisal has been approved by the Secretary of the Interior, 
and there is no opposition on this bill from the 
Administration.
    Mr. Chairman, at this time I would like to ask for a 
unanimous consent to enter the written statement of myself 
along with the Honorable John Ensign, as well as a written 
statement from the city of Las Vegas from Rita Lumos, Public 
Land Service for the city of Las Vegas.
    Mr. Hansen. Without objection. So ordered.
    [The statement of Mr. Gibbons follows:]

 Statement of Hon. James A. Gibbons, a Representative in Congress from 
                          the State of Nevada

    Mr. Chairman,
    I would like to thank you for giving us the opportunity to 
hear testimony on H.R. 2136. This bill has been a long time in 
coming for the people of Las Vegas, and I would like to thank 
my colleague from Nevada, Mr. Ensign, for taking the lead on 
this needed legislation.
    Las Vegas has become the boom town of the West, and with 
such explosions in growth comes the difficult task of people 
pursuing their right to own property. One such problem has 
arisen along Decatur Boulevard where in 1881 the first 
government surveys were completed.
    It is my understanding that no one had purchased any of the 
property along Decatur Boulevard until sometime in the early 
1950's. These new land owners purchased the property using 
private surveys, since the original 1881 government survey was 
impossible to distinguish.
    From 1950 until 1990 the owners of this property occupied 
their land in good faith of title. However, in 1990 the Bureau 
of Land Management performed a resurvey of the land and found 
the boundaries to be very different from the private surveys. 
The new property lines rested on BLM land, private land and 
even through the middle of one house.
    That is why, Mr. Chairman, we need to markup and pass H.R. 
2136. Personally, I would find it troubling to discovery that I 
did not own all the property I had purchased in good faith, and 
that in fact the Federal Government owned part of it. As an 
issue of fairness, it is necessary to direct the Secretary of 
the Interior to allow these land owners the opportunity to 
purchase, at fair market value, what was once truly believed to 
be theirs.
    Thank you Mr. Chairman, I look forward to the testimony 
today and again appreciate the opportunity you have given me 
and the people of Nevada.

    [The prepared statement of Mr. Ensign follows:]

Statement of Hon. John E. Ensign, a Representtive in Congreess from the 
                            State of Nevada

    Thank you Mr. Chairman. I would like to express my support 
for H.R. 2136, a bill that would provide a legislative fix to a 
problem that the Cities of Las Vegas and North Las Vegas have 
been trying to remedy for over 8 years. H.R. 2136 provides for 
a boundary modification for certain lands in Clark County, 
Nevada. This legislation would resolve the title problems that 
have existed on this land for so long.
    The land that H.R. 2136 refers to has had a long history. 
The original government land surveys were performed in the 
early 1880's. In the early 1950's private settlement and 
development began. Because the original survey lines could not 
be ascertained, it was necessary that alternative surveys be 
conducted to determine property lines. This process lasted over 
30 years and the resulting surveys varied considerably. The 
private property owners, unknown to these variances, developed 
their properties based on the private surveys.
    As development increased in Las Vegas, several disputes 
erupted which caused the city of Las Vegas to commission 
another survey to finalize the boundary questions. In 1989, a 
District Court Judge set the centerlines of a major 
thoroughfare, Decatur Boulevard, and adjoining property lines 
at the lines of occupation, what he believed was the most 
equitable solution.
    The Bureau of Land Management objected to the court 
decision and performed a Dependent Resurvey using its Federal 
authority. The BLM's resurvey changed the property lines to the 
point that the boundary actually passes through a privately 
owned home and the BLM maintained that the property owners who 
occupy the land in question were actually in trespass of 
Federal property.
    After extensive negotiations, an agreement has been reached 
where the city of Las Vegas will purchase the land in question 
for a fair market value based on a December 1982 survey. This 
date has been selected as the first point when all parties 
became aware of the dispute. H.R. 2136 would allow the city of 
Las Vegas to purchase this land. It would then be conveyed to 
the respectful owners. Both the Cities of Las Vegas and North 
Las Vegas, and the entire Nevada delegation support this 
legislation.
    I understand the Bureau of Land Management has some 
outstanding concerns relating to the legislation. I am happy to 
work with the BLM as H.R. 2136 moves through the legislative 
process. One point I would like to make is in regards to the 
parcel we recently added to the legislation. As the bill was 
introduced, we included the entire parcel of roughly 39 acres. 
We are currently waiting for the BLM to complete its final 
survey work on this parcel to determine the exact encroachment 
boundary. When the BLM completes that survey, I am willing to 
amend the legislation to reflect those changes.
    Mr. Chairman, I hope the Committee can act swiftly on this 
legislation to resolve this longstanding problem and I look 
forward to working with you to accomplish this goal. In 
addition, I have a written statement from Rita Lumos, the city 
of Las Vegas surveyor, that I would like to include in the 
record with my statement.

    [The prepared statement of Ms. Lumos may be found at end of 
hearing.]
    Mr. Gibbons. Mr. Chairman, thank you, and I look forward to 
testimony again later on after this, and the opportunity that 
you have given us and to the people of the State of Nevada for 
consideration.
    Mr. Hansen. Thank you. Mr. Cannon.

    STATEMENT BY THE HON. CHRIS CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I represent Utah's 
Third Congressional District, where I am privileged to 
represent three national parks: Bryce Canyon, Canyonlands, and 
Arches.
    I am pleased to be here today to discuss H.R. 2283, the 
Arches National Park Expansion Act of 1997. Arches National 
Park is world renowned as the home of hundreds of spectacular 
redrock sandstone arches, created over millions of years by 
wind and water erosion. This poster, which you can see down 
here, is of Delicate Arch, which is also depicted on Utah 
license plates.
    When Arches National Park was created, the Park boundaries 
were drawn here in Washington, where policymakers followed 
predominantly straight lines imposed by section maps without 
understanding the geography. However, Mr. Chairman, Mother 
Nature's creations are not linear, and the Park boundaries 
adopted decades ago sliced Lost Springs Canyon in half. My bill 
places Lost Springs and some other ancillary areas within the 
Park where they naturally belong. The proposed expansion in the 
Northeast corner of the Arches would be an almost seamless 
addition of hundred-foot canyon walls, gentle grass valleys, 
and delicate sandstone arches.
    Not only does this expansion make sense aesthetically, but 
it makes sense from a management standpoint as well. The bill 
is a simple measure that would expand Arches National Park by 
about 3,140 acres. The new boundaries would follow the natural 
geographic line of the canyon rim, making management of the 
area much easier.
    I must admit I was a little skeptical when first approached 
with the idea of expanding Arches National Park. With Arches 
Supervisor Walt Dabney, I went out to see Lost Springs Canyon 
for myself and came to a quick understanding that this land, 
logically and aesthetically, should be part of Arches.
    But even a logical idea such as this has complications, 
which is why I have sought the input of all affected parties. 
In April I traveled to Moab, the nearest major community to 
Arches, and held a town hall meeting on the proposed expansion. 
I heard from the ranchers, recreationalists, miners, 
environmentalists, and a host of local residents.
    Based on those comments, we put together a bill and 
circulated a draft copy to every group expressing interest. We 
received all kinds of suggestions and adopted many of them. The 
final product is, I think, pretty solid. It strikes a good 
balance between the need to protect the environment and the 
needs of those who have to live with the consequences.
    Now let me address a few of the key provisions.
    Part of the proposed addition includes a section of school 
trust land owned by Utah's schools. As that section really 
should be part of Arches, we sat down with the Utah School 
Trust and the Bureau of Land Management to find a section on 
Federal land that could be traded equitably. Eight sections 
were proposed as trades and the BLM struck seven, leaving the 
section in the bill. With both sides working together to 
negotiate a trade, we were able to insure that Utah's schools 
do not pay the price for a Federal land management decision. 
This bill proves that it is possible to resolve school trust 
land disputes.
    Currently, Lost Springs Canyon is a multiple use area which 
includes cattle grazing rights and an existing natural gas 
pipeline. We have tried to balance the expansion with existing 
rights in a manner that will protect the current users. It is a 
tough balance, but I believe we have a reasonable approach.
    I am proud of the process we have followed in putting this 
bill together. I am also pleased to announce that H.R. 2283 has 
drawn the public support from several newspapers in Utah and 
two prominent environmental groups, the Grand Canyon Trust and 
the National Parks and Conservation Association. I have also 
been joined by 48 of my colleagues, including the Chairman.
    In summary, this is a bill which demonstrates that public 
land decisions in the West can be made in a thoughtful, open 
manner. I encourage the Subcommittee to look closely at the 
measure and would appreciate your support.
    Thank you.
    [The prepared statement of Mr. Cannon follows:]

 Statement of Hon. Chris Cannon, a Representative on Congress from the 
                             State of Utah

    Thank you Mr. Chairman.
    I represent Utah's Third Congressional District, where I am 
privileged to represent three national parks--Bryce Canyon, 
Canyonlands and Arches.
    I am pleased to be here today to discuss H.R. 2283, the 
Arches National Park Expansion Act of 1997. Arches National 
Park is world renowned as the home of hundreds of spectacular 
red rock sandstone arches, created over millions of years by 
wind and water erosion. This poster is of Delicate Arch, which 
is also depicted on Utah license plates.
    When Arches National Park was created, the Park boundaries 
were drawn here in Washington, where policy makers followed 
predominately straight lines imposed by section maps, without 
understanding the geography. However, Mr. Chairman, Mother 
Nature's creations are not linear, and the Park boundaries 
adopted decades ago sliced Lost Springs Canyon in half. My bill 
places Lost Springs and some other ancillary areas within the 
Park where they naturally belong. The proposed expansion in the 
Northeast corner of Arches would be an almost seamless addition 
of hundred-foot canyon walls, gentle grass valleys, and 
delicate sandstone arches.
    Not only does this expansion make sense aesthetically, but 
it makes sense from a management standpoint as well. This bill 
is a simple measure that would expand Arches National Park by 
about three thousand one hundred and forty acres. The new 
boundaries would follow the natural geographic line of the 
canyon rim, making management of the area far easier.
    I must admit I was a little skeptical when first approached 
with the idea of expanding Arches National Park. With Arches 
Supervisor Walt Dabney, I went out to see Lost Springs Canyon 
for myself--and came to a quick understanding that this land, 
logically and aesthetically, should be a part of Arches.
    But, even a logical idea such as this has complications, 
which is why I have sought the input of all effected parties. 
In April I traveled to Moab--the nearest major community to 
Arches--and held a town hall meeting on the proposed expansion. 
I heard from ranchers, recreationalists, miners, 
environmentalists and a host of local residents.
    Based on those comments, we put together a bill, and 
circulated the draft copy to every group expressing interest. 
We received all kinds of suggestions, and adopted many of them. 
The final product is, I think, pretty solid. It strikes a good 
balance between the need to protect the environment, and the 
needs of those who have to live with the consequences.
    Let me address a few of the key provisions.
    Part of the proposed addition includes a section of school 
trust land owned by Utah's schools. As that section really 
should be part of Arches, we sat down with the Utah School 
Trust and the Bureau of Land Management to find a section on 
Federal land that could be traded equitably. Eight sections 
were proposed as trades and the BLM struck seven, leaving the 
section in the bill. With both sides working together to 
negotiate a trade, we were able to insure that Utah's schools 
don't pay the price for a Federal land management decision. 
This bill proves that it is possible to resolve school trust 
land disputes.
    Currently, Lost Springs Canyon is a multiple use area, 
which includes cattle grazing rights and an existing natural 
gas pipeline. We have tried to balance the expansion with 
existing rights in a manner that will protect the current 
users. It is a tough balance, but I believe we have a 
reasonable approach.
    I am proud of the process we have followed in putting this 
bill together. I am also pleased to announce that H.R. 2283 has 
drawn the public support of several newspapers in Utah and two 
prominent environmental groups, the Grand Canyon Trust and the 
National Parks and Conservation Association. I have also been 
joined by 48 of my colleagues, including the Chairman.
    In summary, this is a small bill which demonstrates that 
public land decisions in the West can be made in a thoughtful, 
open manner. I encourage the Subcommittee to look closely at 
the measure and would appreciate your support.
    Thank you.

    Mr. Hansen. Thank you very much. We will now entertain 
questions for Mr. Stupak on H.R. 351, Mr. Bishop on 1714, Mr. 
Gibbons on 2136, and Mr. Cannon on 2283. The Gentleman from 
American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I do not have any questions 
for the sponsors of the legislation, our colleagues, but I do 
look forward to hearing from our friend of the National Park 
Service's position of the Administration at this point in time. 
Thank you.
    Mr. Hansen. Mr. Gibbons.
    Mr. Gibbons. I have no questions.
    Mr. Hansen. The gentlelady from the Virgin Islands, Ms. 
Christian--Green.
    Ms. Christian-Green. Thank you, Mr. Chairman, I have no 
questions either. I am just pleased to be here to participate 
in this hearing on the four bills, and of particular interest 
to me are bill 351, which is sponsored by my friend and 
colleague, Representative Stupak, and which I understand is 
nearing agreement with the National Park Service, and also of 
interest H.R. 1714, the Plains Railroad Depot Bill, which is 
sponsored by another friend and colleague, Representative 
Sanford Bishop. I would like to welcome them here this morning 
and commend them for introducing these bills, and you, Mr. 
Chairman, for your willingness to move them forward. Thank you.
    Mr. Hansen. Thank you. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman, I have no questions at 
this time.
    Mr. Hansen. Well, surely I will not be disappointed by my 
friend, Bruce Vento.
    Mr. Vento. Mr. Chairman, I have read the background 
material and I understand the bills and the objectives of the 
sponsors but I think I will reserve my questions for the 
Administration and other witnesses, Mr. Chairman.
    Mr. Hansen. Well, thank you very much. We welcome our two 
colleagues to join us on the dais. Thank you for your excellent 
testimony.
    We will start with our next panel, Mat Millenbach, Deputy 
Director of the Bureau of Land Management, and Denis Galvin, 
Deputy Director of the National Park Service. If you gentlemen 
would come forward.
    It is always good to see you, gentlemen. It is a regular 
occurrence up here. We ought to charge you office space you 
spend so much time here. At our request, however. Can you both 
do it in 5 minutes?
    Mr. Millenbach. I can do mine in 5 minutes.
    Mr. Galvin. I can do mine in 5 minutes.
    Mr. Hansen. All right, you know the rules. On go the 
lights.
    Mr. Millenbach. OK.
    Mr. Hansen. Mat, we will turn to you.

 STATEMENT OF MAT MILLENBACH, DEPUTY DIRECTOR, BUREAU OF LAND 
                           MANAGEMENT

    Mr. Millenbach. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify on H.R. 2136, a bill which provides for 
conveyance of certain lands along Decatur Boulevard in Las 
Vegas, Nevada. I testified before this Committee in May 1996 on 
the first version of this bill. At that time, several 
suggestions were made which would make the bill one that the 
Administration could support. I am happy to report that most of 
those concerns have been resolved in this bill. Like 
Congressmen Ensign and Gibbons, we believe that the problems 
related to erroneous private surveys of land along Decatur 
Boulevard in Las Vegas need to be resolved. We support 
resolving this long-standing boundary dispute and believe it 
can be done in a rational and fair manner. If amended to 
reflect our remaining concerns, we would support the bill.
    H.R. 2136 seeks to eliminate encroachments on approximately 
69 acres of public land which parallel Decatur Boulevard near 
downtown Las Vegas, Nevada. The private land adjacent to the 
public land was erroneously surveyed by private surveys over a 
20-year period, in differing locations, as much as 500 feet 
apart. In the early 1980's, the survey errors along Decatur 
Boulevard were brought to the BLM's attention, and in 1990 the 
BLM conducted a resurvey to restore the original survey corners 
on the ground.
    H.R. 2136 requires payment of market value to the United 
States based on an appraised value of the lands as of December 
1, 1982. Since the United States is not responsible for the 
survey errors which led to the encroachment, payment of market 
value is appropriate. Since these survey issues surfaced and 
resolution efforts were initiated in the early 1980's, this 
date of valuation seems equitable to both the claimants and the 
taxpayers.
    We have several concerns with H.R. 2136. Section 1(5) 
contains some confusing wording, which is described in more 
detail of my written testimony, so I will submit that for the 
record.
    Section 2(b)(3) provides for the conveyance of lot 1, in 
section 24, containing 39 acres. This is considerably more 
acreage that what is actually encroached upon. All the other 
lands described in Section 2(b) contain only the lands 
encroached upon, and in order to avoid conveying several dozen 
acres at a 1982 value that have not been encroached upon, we 
recommend conveying only those lands actually encumbered, and 
we have consulted the Las Vegas City Surveyor, Rita Lumos, on 
that and she concurs with us on this.
    Because of this size modification, Section 2(b) would also 
be amended to change the acreage from 68.60 acres to 37.36 
acres.
    Finally, section 2(c)(1) should be modified to assure that 
all valid existing rights are protected, and we have included 
suggested wording to that effect in my written testimony.
    This concludes my statement. I will be glad to answer any 
questions you may have.
    [The prepared statement of Mr. Millenbach follows:]

Statement of Mat Millenbach, Deputy Director, Bureau of Land Management

    Thank you for the opportunity to testify on H.R. 2136, a 
bill which provides for conveyance of certain lands along 
Decatur Boulevard in Las Vegas, Nevada. I testi-

fied before this Subcommittee in May 1996 on the first version 
of this bill. At that time several suggestions were made which 
would make the bill one that the Administration could support. 
I am happy to report that most of those concerns have been 
resolved in this bill. Like Congressmen Ensign and Gibbons, we 
believe that the problems related to erroneous private surveys 
of land along Decatur Boulevard in Las Vegas need to be 
resolved. We support resolving this long-standing boundary 
dispute and believe it can be done in a rational and fair 
manner. If amended to reflect our remaining concerns, we would 
support the bill.
    H.R. 2136 seeks to eliminate encroachments on approximately 
69 acres of public land which parallel Decatur Boulevard near 
downtown Las Vegas, Nevada. The private land adjacent to the 
public land was erroneously located by private surveys, over a 
20 year period, in differing locations, as much as 500 feet 
apart. In the early 1980's, the survey errors along Decatur 
Boulevard were brought to the BLM's attention. In 1990, the BLM 
conducted a resurvey to restore the original survey corners on 
the ground.
    H.R. 2136 requires payment of market value to the United 
States based on an appraised value of the lands on December 1, 
1982. Since the United States is not responsible for the survey 
errors which led to the encroachments, payment of market value 
is appropriate. Since these survey issues surfaced and 
resolution efforts were initiated in the early 1980's, this 
date of valuation seems equitable to both the claimants and the 
taxpayers.
    We have several concerns with H.R. 2136. Section 1 (5) of 
the bill states that the ``Secretary should sell, at fair 
market value, the properties described in section 2 (b).'' This 
language should be modified so it does not conflict with 
section 2 (c), which states that the value will be ``based on 
an appraisal of the fair market value as of December 1, 1982.''
    Section 2 (b) (3) provides for the conveyance of lot 1, 
section 24, Township 19 South, Range 60 East, containing 39.24 
acres. This is considerably more acreage than what is actually 
encroached upon. All the other lands described in section 2 (b) 
contain only the lands encroached upon. In order to avoid 
conveying several dozen acres at a 1982 value that have not 
been encroached upon, we recommend conveying only those lands 
actually encumbered. This will require a survey in order to 
legally describe the property involved. Since this bill was 
introduced in July, our Nevada State Office has been working 
with the Las Vegas City Surveyor, Rita Lumos, to partition lot 
1 to resolve this concern. A survey identifying a specific lot 
containing only the encroached upon lands in lot 1, Section 24 
will be completed this winter. We would ask that section 2 (b) 
(3) of the bill be modified to describe only the lands 
encroached upon in lot 1, section 24, Township 19 South, Range 
60 East, Mount Diablo Meridian, containing approximately 8 
acres. Because of this size modification, Section 2 (b) should 
also be amended to change the acreage from ``68.60 acres'' to 
``37.36 acres.''
    Section 2 (c) (1) should be modified to assure that all 
valid existing rights are protected. We would suggest adding 
``subject to valid existing rights'' after the words ``the 
Secretary shall convey.'' We would be glad to work with the 
Subcommittee to resolve these final issues to H.R. 2136.
    This concludes my statement. I will be glad to answer any 
questions you may have.

    Mr. Hansen. Thank you very much. Denis Galvin, the time is 
yours, sir.

   STATEMENT OF DENIS GALVIN, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Galvin. Mr. Chairman, I have the Administration 
position on three bills before the Committee today.
    H.R. 2283, as Congressman Cannon outlined, is a bill to 
expand the boundaries of Arches National Park. It would expand 
what is now a 73,000-acre park by 3,000 acres of contiguous 
canyon lands that drain into the park. Existing grazing 
practices would be protected under the bill.
    We have a few amendments suggested to the bill, Mr. 
Chairman. We support the bill. BLM has provided comments that 
suggest a new section be added to the bill but states that the 
National Park Service will manage the portion of the acquired 
lands currently within the Lost Spring Canyon Wilderness Study 
Area to protect its wilderness values. We have no objection to 
that.
    They also have requested that Section 2(c) be reworded to 
state that the National Park Service will amend--administer the 
portion of the grazing permit transferred to the park. I might 
say of the grazing provisions in the bill, Mr. Chairman, they 
allow for the continuation of grazing unless the grazing 
permits are bought. There is a good prospect that a private 
donation will actually buy out the grazing interests in the 
addition.
    We have a few technical corrections to the bill as well.
    Congressman Bishop certainly adequately outlined the 
situation at Jimmy Carter. The land underneath the railroad 
depot, which has been donated to the National Park Service by 
CSX, does not belong to the Park Service because the owners 
cannot be found. When the depot ceased to be used for railroad 
purposes, the original conveyance of land to the railroad 
allowed for that land to go back to its owners, so this bill 
authorizes a quiet title action and would put money in an 
escrow account to secure title to the property, and thus finish 
the development of this important historic building, one of the 
four buildings mentioned in the original legislation 
authorizing Jimmy Carter National Historic Site.
    Finally, Mr. Chairman, I would like to state our position 
on H.R. 351 to make appropriate improvements to a county road 
located in Pictured Rocks National Lakeshore. As Congressman--
and to prohibit construction of a scenic shoreline drive.
    As Congressman Stupak outlined, the original bill 
authorizing for Pictured Rocks called for the construction of a 
scenic shoreline drive, and subsequently in the history of the 
park that shoreline drive which was originally intended to be 
over 40 miles long was brought down to 13 miles.
    The Park Service did an environmental impact statement some 
years back on the construction of the road finding that it was 
feasible but expensive, $13 million. Furthermore, 97 percent of 
the public comments on that EIS opposed construction of the 
scenic drive, so the solution suggested here by H.R. 351, that 
we use the existing country road in lieu of the scenic 
shoreline drive, is acceptable to the National Park Service.
    Our suggested amendments in my prepared testimony are 
intended to clarify that the Park Service position is that the 
Park Service responsibility would be restricted to the some 17-
plus miles within the boundaries of the park as opposed to the 
sum total of 43 miles outside the park.
    As Congressman Stupak indicated, the cost of upgrading the 
road inside the park is $5.6 million. An additional $2.8 
million is required to improve the road outside the park.
    So our position is basically we are willing to take the 
interest in the county road inside the park boundaries and to 
seek funds to improve that as the major access to Pictured 
Rocks National Lakeshore.
    That concludes my testimony, Mr. Chairman.
    [The prepared statements of Mr. Galvin follow:]

 Statement of Denis P. Galvin, Deputy Director, National Park Service, 
  U.S. Department of the Interior concerning H.R. 2283, ``The Arches 
                 National Park Expansion Act of 1997''

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to appear before you to address H.R. 2283, a 
bill to expand the boundaries of Arches National Park by adding 
an area known as the Lost Spring Canyon Addition. We support 
the bill if it is amended to address our concerns as outlined 
below, and appreciate Congressman Cannon's efforts on behalf of 
the park.
    Arches National Monument was designated by Presidential 
proclamation in 1929, enlarged by proclamation three more 
times, and established by Congress as Arches National Park in 
1971. The park's purpose is to protect one of the largest 
concentrations of natural stone arches in the world. The arches 
and numerous extraordinary geologic features, such as spires, 
pinnacles, pedestals and balanced rocks, are highlighted in 
striking foreground and background views created by contrasting 
colors, landforms and textures. The park encompasses 73,379 
acres, of which 63,581.45 acres are recommended for wilderness 
designation.
    If enacted, H.R. 2283 would expand the boundaries of Arches 
National Park, located in Grand County, Utah by approximately 
3,140 acres. With the exception of a 32-acre parcel of Utah 
School and Institutional Trust Lands, all the land is owned by 
the Bureau of Land Management (BLM). An exchange agreement will 
need to be reached between the State of Utah and the BLM to 
transfer the State School section now located within the 
addition. The state would receive another BLM section of 
approximate equal value located elsewhere in the county. With 
this completed, all of the land within the addition would be in 
Federal ownership, and those BLM lands could then be 
transferred to the National Park Service.
    Where permits currently exist, existing grazing practices 
would be protected within the addition for the lifetime of the 
permittees and their direct descendants. However, the bill 
provides for grazing permits in the addition to be purchased 
and retired prior to expiration and we hope that a conservation 
buyer will be located to complete this transaction after the 
bill becomes law. The operation and management of the natural 
gas pipeline within the addition would not be affected and 
would continue uninterrupted under National Park Service 
guidelines.
    The area known as the Lost Spring Canyon Addition has been 
discussed periodically since the 1980's. The National Park 
Service completed a resource assessment for the area in 1984 as 
part of a statewide BLM wilderness study. The area contains the 
upstream sections of the canyon system known as Upper Salt 
Wash, its tributary Lost Spring Canyon and several side 
canyons. The lower portion of the canyon system is already 
within present park boundaries. The proposed addition is a 
logical extension of the park since the upper and lower canyons 
are of the same outstanding quality and comprise an obvious 
geographic unit. It is an intricately eroded system of 
multicolored Entrada sandstone canyons with high walls, arches, 
domes, alcoves, and amphitheaters. It contains seven documented 
arches, including Covert Arch. There are nearly vertical, 
narrow slickrock canyon walls, several hundred feet high. Some 
of the canyon bottoms contain lush riparian areas. Freshwater 
springs and seeps are also present.
    The Lost Spring Canyon Addition is contiguous with the 
park's northeast corner, and shares a common boundary with the 
park. The proposed boundary, identified in the legislation, 
would follow canyon rims and natural forms instead of section 
lines and other man-made features. This geographic boundary is 
a natural extension of the park and encompasses most of the 
incised canyon system. Using canyon rims as boundaries will 
make it easier for park visitors and public land-users to 
determine their location, and will provide a logical separation 
between park activities and values and adjacent multiple-use 
activities.
    The Lost Spring Canyon Addition is accessible by foot from 
existing park trailheads and parking areas. Many visitors to 
this area already access it from National Park Service 
facilities. Much of the canyon system is visible from several 
high-use areas of the park, including the Delicate Arch Trail, 
Devils Garden Campground and the Park Road. The proximity of 
the Lost Spring Canyon Addition to the park allows for cost-
effective management. Park staff and facilities are already in 
place.
    Remote and unroaded, the Lost Spring Canyon Addition will 
provide a backcountry experience currently uncommon in Arches 
National Park. Most of the proposed addition is managed by the 
BLM as a Wilderness Study Area (WSA). The National Park Service 
intends to protect the area's wilderness values, and actions 
such as road or campground construction will not occur. Most of 
the addition, with the exception of the pipeline corridor, 
would be incorporated into the wilderness recommendations for 
Arches National Park. We do not plan, nor do we anticipate the 
need for, road construction in the addition. It is expected 
that additional trails may be necessary to access the area.
    Congressman Cannon has held a public meeting, site visit 
and press conference on this legislation. Representatives of 
the community and local government support the proposal, as 
have editorials in several local and state newspapers. With the 
provision for the State School Lands exchange, the State of 
Utah has also expressed its support.
    The additions of these lands to Arches National Park would 
enhance the experiences of visitors and provide expanded 
protection of these unique geologic resources that tell the 
powerful story of the forces and impact of time and weather on 
the face of the earth.
    In reviewing the legislation, the BLM has provided comments 
to us on sections of the bill which require clarification or 
correction. They have requested that a new section be added to 
the bill that states that the National Park Service will manage 
the portion of the acquired lands that are currently within the 
Lost Spring Canyon Wilderness Study Area to protect its 
wilderness values, and that this protection will remain in 
place unless the area is released from the requirements of 
Section 603(c) of the Federal Land Policy and Management Act of 
1976 by an Act of Congress. They have also requested that 
section 2(c) be reworded to state that the National Park 
Service will administer the portion of the grazing permit 
transferred to the park, and that section 8(a) of the bill be 
revised to clarify whether the title transfer of State lands 
occurs when the Secretary accepts the State's offer, or if the 
title transfer occurs at the time of conveyance of Federal 
lands to the State after all administrative actions have been 
completed.
    Therefore three technical corrections will need to be made 
in the bill: Section 8(b)(1) is inconsistent with section 8(d) 
in reference to the deadline for the completion of the 
exchange; and the legal description of the Federal parcel to be 
conveyed to the state in section 8(b)(2) is incorrect and 
should be rewritten; and where the bill states ``Fish Sheep 
Draw'', it should state ``Fish Seep Draw.''
    We would be pleased to work with the Subcommittee to 
provide specific language to address all of these issues. That 
completes my remarks Mr. Chairman. I would be happy to answer 
any questions that you may have.
                                ------                                


 Statement of Denis P. Galvin, Deputy Director, National Park Service, 
            Department of the Interior, concerning H.R. 1714

    Mr. Chairman, thank you for the opportunity to offer the 
Department of the Interior's views on H.R. 1714, a bill to 
amend the Act of December 23, 1987 (Public Law 100-206), that 
established the Jimmy Carter National Historic Site and 
Preservation District to authorize the acquisition of the 
Plains Railroad Depot by donation, purchase with donated or 
appropriated funds, exchange, or other means.
    We strongly support this legislation, and we recommend its 
enactment.
    The Plains Railroad Depot, which was built in 1888, served 
as the headquarters for Jimmy Carter's successful 1976 
Presidential campaign. The depot is cited in the Act that 
established the Jimmy Carter National Historic Site and 
Preservation District as one of four cultural resources that 
has significant historical association with the 39th President 
of the United States. The railroad depot is an integral part of 
the Jimmy Carter National Historic Site and Preservation 
District, which also includes the boyhood home of Jimmy Carter, 
the Plains High School, and the Carter compound. The Jimmy 
Carter National Historic Site tends to have especially heavy 
visitation from school groups and in 1990, the depot alone had 
34,822 visitors.
    During the 1976 Presidential campaign, the depot figured 
prominently in media coverage and became closely associated 
with Jimmy Carter, the candidate. The campaign itself was 
remarkable in that it succeeded in bringing a largely unknown 
contender to the attention of the entire country.
    Although the Plains Historic Preservation Trust donated the 
depot structure to the National Park Service in 1988, the 0.19 
acre tract on which the depot stands remains in private 
ownership. M.L. Hudson conveyed an easement for railroad 
purposes to the railroad company, which is now CSX. No 
conveyance of the underlying fee title took place. The city of 
Plains and the National Park Service have sought for several 
years to resolve the question of property ownership, but we 
have been unable to determine the heirs of the original 
landowner.
    Under current law the Secretary is authorized to acquire 
the land on which the depot stands only through donation. This 
restriction prevents the National Park Service from acquiring 
the property; and because the National Park Service does not 
own the property on which the depot stands, we are unable to 
connect the facility to the city sewer system or to provide 
visitor parking, sidewalks or access to the building for the 
disabled. H.R. 1714 would release the donation restriction on 
the acquisition of the property and would allow the National 
Park Service to clear title to the property by other means of 
acquisition including a quiet title action, and to compensate 
the owners should they be located.
    Despite the constraints imposed by the fact that the land 
is not in Federal ownership, we have been able to move forward 
with the development of the depot structure into a museum. This 
progress is due, in large part, to a partnership between the 
National Park Service and an organization of collectors of 
political memorabilia. This 80-member organization, called the 
Carter Political Items Collectors (CPIC), is a subchapter of a 
much larger group, the American Political Items Collectors, who 
is interested in American political history.
    The partnership began 2 years ago when President Carter 
suggested that the CPIC assist the National Park Service with 
the project of converting the railroad depot into a museum. 
Efforts are well underway to establish in the depot fourteen 
exhibits and two audiovisual programs focusing on key events in 
President Carter's journey through the national primaries, 
caucuses, Democratic convention and the general election. We 
will also highlight the major role the small railroad depot 
played in the 1976 Presidential campaign.
    Because of the success of the partnership with CPIC, this 
project will be completed at a cost of approximately $50,000 
instead of $512,000 which was the cost estimate included in the 
General Management Plan for the site. We expect to host the 
opening of the depot museum on September 27th of this year.
    Mr. Chairman, this concludes my prepared remarks. I will be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                ------                                

 Statement of Denis P. Galvin, Deputy Director, National Park Service, 
                Department of the Interior, on H.R. 351
    Mr. Chairman, thank you for the opportunity to appear before your 
Committee to present the views of the Department on H.R. 351, a bill to 
authorize the Secretary of the Interior to make appropriate 
improvements to a county road located in the Pictured Rocks National 
Lakeshore, and to prohibit construction of a scenic shoreline drive in 
that national lakeshore.
    We support H.R. 351 if amended according to our testimony. We 
commend the intent of this bill in eliminating the requirement in the 
park's enabling legislation (Public Law 89-668) to construct a scenic 
shoreline drive within Pictured Rocks National Lakeshore. We believe 
that the repair of County Road H-58 is an equitable alternative to the 
construction of the scenic drive.
    We support making appropriate improvements to Alger County Road H-
58 instead of the construction of a scenic shoreline drive. However, it 
is our belief that this Federal commitment can be more fully and 
effectively met by acquisition of that segment of H-58 situated within 
the boundary of the national lakeshore. With title vested in the United 
States, the responsibility for improvement and maintenance of this 
portion of H-58 would rest clearly with the National Park Service 
(NPS). The Board of Road Commissioners of Alger County could then 
devote its improvement and maintenance attention to the remainder of 
County Road H-58 that is located outside the park boundary. We 
recommend H.R. 351 be amended as follows:

        <bullet> On page 2, strike lines 3-6 and insert ``(1) in 
        subsection (b)(l) by striking `` `including a scenic shoreline 
        drive' ''.
        <bullet> On page 2, by striking lines 9 and 10 and inserting:

        `` `(c) The Secretary shall, upon request of the Board of Road 
        Commissioners of Alger County (Michigan), accept title to those 
        portions of Alger County Road H-58 located within the 
        legislated boundary of the Pictured Rocks National Lakeshore 
        for the purpose of providing for its maintenance and 
        improvement consistent with subsections 8(a) and 8(c) of this 
        Act. The Secretary may, upon request of the owners of record, 
        accept title to other roads located within the national 
        lakeshore boundary for the purpose of providing for their 
        maintenance and improvement.' ''
    The amendments we offer retain the intent of H.R. 351 in 
eliminating the scenic shoreline drive, and they give the NPS the 
ability to more efficiently maintain and improve that segment of County 
Road H-58 located within the boundary of the park.
    Construction of the scenic shoreline drive was a focal point for 
development of the national lakeshore as planned in 1966 and was 
rejected in Master Plans for development of the park prepared by the 
UPS in the late 1960's and early 1970's. However, subsequent 
environmental impact analysis resulted in the elimination from 
construction consideration of all but 13 miles of the originally 
envisioned 43-mile long roadway.
    Construction of this remaining 13-mile segment of roadway is 
reflected in the current General Management Plan (GMP) for the park, 
completed in September 1981. The GMP notes that the 13 mile segment of 
new construction, in combination with existing portions (30.4 miles) of 
Alger County Road H-58, would comprise the revised scenic shoreline 
drive alignment.
    In 1988, the NPS initiated preparation of an environmental impact 
statement (EIS) focused on identification of a specific alignment for 
the 13-mile segment of proposed new construction. This proposed roadway 
is referred to as the Beaver Basin Rim Road. Preparation of the EIS 
came as a result of local governments petitioning the NPS and Members 
of Congress to proceed with construction in compliance with Public Law 
89-668, which states, ``the Secretary shall provide . . . a scenic 
shoreline drive.'' The EIS Record of Decision, issued in July 1996, 
indicated that construction of the proposed segment of road would 
result in a minimal and acceptable level of environmental impact. 
Estimated cost of construction is S13 million.
    While it was the finding of the EIS that from an environmental 
impact standpoint the construction could proceed, 97 percent of the 
public commenting on the EIS indicated opposition. In addition, local 
governments have revised their position regarding construction of the 
Beaver Basin Rim Road and have withdrawn their support for construction 
of the 13-mile segment. In lieu of the new construction, local 
governments request that funds that would have been allocated for the 
l3-mile segment be utilized instead to improve H-58.
    The NPS recognizes that Alger County Road H-58--notably the segment 
situated within the boundary of the park--serves as the principal 
motorized access and circulation route for users of the national 
lakeshore. Other segments of H-28 principally serve private property 
owners and lands comprising the Lake Superior State Forest. Elimination 
of the 43-mile scenic shoreline drive places the full impact of visitor 
motorized access and circulation to lakeshore attractions and 
facilities upon County Road H-58.
    The NPS feels strongly that the best means to cooperatively 
maintain and improve Alger County Road H-58 is to accept title to the 
17-mile segment of road situated between the eastern boundary of the 
national lakeshore at Grand Marais and the intersection of the 
Hurricane River truck trail located north of the State of Michigan's 
Kingston Lake State Forest Campground. This acquisition can be 
accomplished under the provisions of subsections 8(a) and (c) of Public 
Law 89-668. Upon acquisition of the 17-mile segment located within the 
boundary of the lakeshore, NPS would assume responsibility for its 
maintenance and long-term improvement. Our amendment directs the 
Secretary to accept this road for the express purpose of providing for 
its care and improvement. This could include contractual services to 
others for some of the work performed. We also included language 
directing consideration of acceptance of title to other non-federally 
owned roads situated within the boundaries of the national lakeshore 
that serve the needs of park users.
    The NPS estimates that the cost of annual maintenance and essential 
improvements to sustain the current level of vehicle use of the 17-mile 
segment of roadway in its present sand and gravel condition would be 
$190,000 per annum. If upgraded to a two-lane, paved surface, the 
road's annual maintenance costs would be $23,310. This new funding 
would come from the NPS operations account and amounts available would 
be added as a recurring increase to the operating base of Pictured 
Rocks National Lakeshore. The total cost for upgrading the 17-mile 
segment to a two-lane, paved surface designed for a posted speed of 35 
mph is estimated to be $5,650,000. This figure includes engineering and 
environmental compliance costs.
    If H.R. 351 is enacted with the NPS amendments and funds are 
available, NPS would undertake the maintenance and improvement of this 
segment of H-58. However, if NPS does not receive title to the 17-mile 
segment, it is our intent to distribute available funds to the Board of 
Commissioners of Alger County for their use in undertaking improvements 
to H-58.
    If the NPS received title to the l7-mile segment, the NPS could 
seek funds to undertake major improvements to the roadway, such as 
realignments, placement and improvement of road base, and paving, 
through the Federal Lands Highway Program (FLHP) for park roads, 
subject to budget constraints and Administration priorities. This is 
the type of project that could more readily be addressed if the 
Congress were to provide the Administration's request for FLHP funding 
of the park roads ($161 million) during reauthorization of the 
Intermodal Surface Transportation Efficiency Act.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
answer any questions you may have.

    Mr. Hansen. Thank you. Questions for our witnesses? The 
gentleman from American Samoa.
    Mr. Faleomavaega. We will take the easy one first. I would 
like to ask Mr. Galvin on the H.R. 1714 by our friend from 
Georgia, Mr. Bishop, my understanding is that this legislation 
has already passed the Senate?
    Mr. Galvin. That is correct.
    Mr. Faleomavaega. And the Administration has no objection 
to the provisions to the proposal?
    Mr. Galvin. That is right.
    Mr. Faleomavaega. OK. Now concerning our friend from 
Michigan, Mr. Millenbach, I think your--oh, no, Mr. Galvin 
still. You say that the total assessed value of the cost of the 
construction of this road is about $7 million both inside and 
outside the park?
    Mr. Galvin. That is--yes, it is between seven and eight. My 
understanding is it is $5.6 million inside the park and $2.8 
million outside the park. Some improvements have already been 
done on the county portions outside the park.
    Mr. Faleomavaega. The Administration or the National Park 
Service is committed to construction of the road within the 
park system.
    Mr. Galvin. That is correct.
    Mr. Faleomavaega. Now outside the park system, has it been 
the practice in the past as well as the present that the park 
can--the National Park Service has also constructed road 
systems outside of the park system?
    Mr. Galvin. Very rarely. It requires the specific 
authorization of Congress and in talking about this bill 
yesterday, I cannot think of a precedent where the Park Service 
has, with the possible exception of Bear Tooth Highway adjacent 
to Yellowstone National Park. Generally our authorities only 
extend to roads inside the park.
    Mr. Faleomavaega. Now you say they very rarely--you have 
cited the rare occasions that we can do this outside the park?
    Mr. Galvin. Sure, if we are authorized to do it, it is 
possible. Absolutely, yes.
    Mr. Faleomavaega. All right. A question concerning the H.R. 
2136, you indicated earlier that there was some problems or 
errors in the surveying process?
    Mr. Galvin. Yes, sir.
    Mr. Faleomavaega. These errors were, of course, accidental 
or oversight? They were not intentional in any way?
    Mr. Galvin. That is my understanding, yes, sir.
    Mr. Faleomavaega. Now your feeling is that we should maybe 
make the alignments better or is it--there are problems with 
that, or do you think that perhaps the State of Nevada could 
make these corrections?
    Mr. Galvin. No, sir, the survey errors are private survey 
errors. The Federal survey--the Federal lands were resurveyed 
and the original survey corners were reestablished. What these 
are is that because of the inability to find the original 
corners, perhaps, the private surveyors were--when they 
surveyed the property lines for these private citizens, the 
lines were off from the original surveys. So this does not 
really change on the ground. What it does, is it allows us to 
sell those lands that were erroneously surveyed to the city of 
Las Vegas, who will in turn convey them to the individuals.
    Mr. Faleomavaega. I am going to rely on Mr. Gibbons for 
further questioning of this, but on H.R. 2283 did I hear 
correctly that the Administration has no objection to the 
provisions of the proposed bill? I mean, there were some 
recommendations or adjustments, am I correct on this? This was 
on the Arches----
    Mr. Galvin. That is correct.
    Mr. Faleomavaega. [continuing] National Park.
    Mr. Galvin. That is correct. The additions that the 
Administration suggests are either technical in character or 
they amplify the management roles in the park, but we support 
this bill, yes.
    Mr. Faleomavaega. Could I strongly admonish the 
Administration to work closely with my good friend from Utah to 
see if we can iron out some of these differences?
    Mr. Galvin. Actually, I do not believe we have any 
significant differences. I think we are in agreement, that the 
amendments are strictly technical in nature or emphasize a 
management role on passage.
    Mr. Faleomavaega. All right. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. I have no problem 
with the technical amendments with regard to the actual 
description of these properties that are going to be conveyed. 
When do you expect, Mr. Millenbach, to have the final surveys 
completed?
    Mr. Millenbach. I do not have a date, Congressman. It is--
we have been working with the Las Vegas City Surveyor, Rita 
Lumos, to get those set up. She has been talking to our office 
and I do not have the actual date that has been set to do that 
but it will be done very quickly.
    Mr. Gibbons. And the fair market value will be based on the 
actual property conveyed, not broad, general categories that 
were outlined in this description here in this bill, is that 
correct?
    Mr. Millenbach. Yes, sir. The values will be based on an 
appraisal that was done as of the date in 1982.
    Mr. Gibbons. Right. Could you briefly describe for the 
Committee the current status of that property? Could you give a 
description of Decatur Boulevard? I know it is a four-lane 
divided boulevard through there. Is the property on either side 
commercially developed, or privately developed, or which?
    Mr. Millenbach. You probably have a better handle on that 
than I do, Congressman. It is a long, narrow piece of property, 
a mile and a half long, and up to, at the widest point, 500 
feet wide. There is an additional lot that has been added on 
the southern end, which is encroached upon by houses, and, you 
know, the adjoining properties, on two sides, and so it is a 
kind of an odd shape. It looks like a golf club.
    Mr. Gibbons. Right. Now, just for clarification, could you 
just give us a brief analysis of why the 1982 date was selected 
for the fair market value on the property?
    Mr. Millenbach. Yes, sir. That was the date--when I 
testified last year on this bill, there was a concern about 
whether the people should pay for the property and we were 
trying to reach an equitable agreement between the property 
owners and the Federal Government, and the 1982 date was 
selected as the date when it be-

came apparent to us that there were some problems on this 
property, and that was the time when people were sitting--had 
sat down and tried to figure out what we do to resolve this. So 
we felt like that was an equitable date to set the appraisals 
at.
    Mr. Gibbons. Thank you. Mr. Chairman, with those final 
descriptions of the property, I have no problem with making any 
technical amendments to the bill in that regard.
    Mr. Hansen. The gentleman from Minnesota, Mr. Vento.
    Mr. Vento. Thank you, Mr. Chairman. I welcome the Deputy 
Director, Mr. Galvin and Mr. Millenbach.
    Mr. Galvin, with regards to the Michigan park, how many 
miles is the road that is being suggested for maintenance by 
the Park Service? How long is--I know 17 miles is the segment 
that----
    Mr. Galvin. Seventeen miles inside--it is 17-plus miles 
inside the boundaries of the park. It is all country road. Its 
total length is about 48 miles.
    Mr. Vento. Forty-eight miles, and so what is--this 
legislation, I understand, right, that you are suggesting that 
you have the 17 miles, the rights to that 17 miles, conveyed to 
the Park Service?
    Mr. Galvin. That is right. It is currently a county road.
    Mr. Vento. And that the remaining 31 miles be maintained by 
the county, is that correct?
    Mr. Galvin. That is right, that is the----
    Mr. Vento. The funding, the legislation, provides for the 
entire 48 miles, is that it?
    Mr. Galvin. No, we do not believe so. We believe that the 
way the legislation is written as amending the original Act, 
the title and the section in the original Act, Section VI, 
talks about Pictured Rocks National Lakeshore. So when you add 
the amendments to that we believe that the legislation as 
written would limit the National Park Service's jurisdiction to 
the road inside the park.
    Now, if the intent is different, we do not think the 
legislation will pass.
    Mr. Vento. This, also, you are suggesting that since the 
legislation refers to a scenic drive, apparently, in a 
different route, which you think the legislation should be 
rewritten, or written, to, in fact, exclude the possibility of 
that, is that right, even though there is no intention at this 
time because of, apparently, other problems to road that area?
    Mr. Galvin. Yes, that is right. The original legislation 
says that the Secretary ``shall build'' a scenic drive in 
Pictured Rocks National Lakeshore, and this legislation and the 
Administration position essentially removes that requirement 
from Pictured Rocks.
    Mr. Vento. So that is in the legislation, right?
    Mr. Galvin. That is in the legislation, yes.
    Mr. Vento. So that is sort of the tradeoff, the quid pro 
quo. Well, I do not know what the intention of my colleague is. 
I yield to him, Mr. Chairman, with your permission at this time 
to see if this interpretation, if just the 17 miles is what he 
intended.
    Mr. Stupak. With permission of the Chair, and I thank the 
gentleman for yielding, the intent of the legislation is to 
have the Park Service take over the full 48 miles because what 
we are striking, where it says ``shall include a scenic 
lakeshore,'' meaning they should do that, we are putting in 
there ``including the appropriate improvements to Alger County 
Road H-58.''
    Mr. Vento. OK.
    Mr. Stupak. So that would include all of that road.
    Mr. Vento. I--let me--I know that these are tough questions 
but I think we need to understand them so that--so it is the 
full 48 miles that is intended.
    Do you have any cost figures or estimates, Mr. Galvin? I 
notice that you point out that it is about $5.6 million for the 
construction of the 17-mile segment. Is that accurate or am I--
did I read that?
    Mr. Galvin. No, that is right. That is the current estimate 
for inside, for the 17 miles.
    Mr. Vento. Seventeen.
    Mr. Galvin. Um-hum.
    Mr. Vento. So I guess if you extrapolate it out you would 
get an idea of what----
    Mr. Galvin. You cannot do that in this instance because on 
the balance of the mileage improvements have already been made 
using other funds, so that the portion, the existing 
improvements that are required outside the park, total about 
$2.8 million, as I understand it.
    Mr. Vento. OK.
    Mr. Galvin. These are estimates, incidentally, given to us 
by the county.
    Mr. Vento. Yes, this, of course, comes out of--the road 
money that the Park Service uses--is out of the Highway Trust 
Fund? We get a special allocation, is that correct? So that 
this would not be in conflict with other resources of the Park 
Service other than within the highway account, is that right?
    Mr. Galvin. The Federal Lands Highway Program, which is 
within the trust fund, gives us currently $82 million a year. 
The Administration position in the reauthorization is that we 
should get $161 million.
    Mr. Vento. Well, yes, I----
    Mr. Galvin. That is normally limited to what is called park 
roads. It is limited to park roads.
    Mr. Vento. So it would come out of that allocation.
    Mr. Galvin. That is right.
    Mr. Vento. I mean, so there is no other draw other than 
taking it from these but it is a smaller amount. Well, I think 
it is--that is really the question the Committee has. It is 
unusual but obviously it solves the problem within the park in 
terms of not constructing--and everyone agrees that should not 
be constructed within the park--the----
    Mr. Galvin. That is right. We are----
    Mr. Vento. Other than using the current roadbed.
    Mr. Galvin. Yes, we are certainly in synch with the intent 
of this bill, not to build the scenic drive----
    Mr. Vento. Right.
    Mr. Galvin. [continuing] and to use the county road in 
place of it. The only question is to what extent to pay for the 
improvements.
    Mr. Vento. Well, Mr. Chairman, there is just one other 
question. This grazing issue in the Arches bill, this 
legislation attempts to deal with that concern in terms of that 
grazing privilege by, in fact, providing for lifetime--you 
know, the life of the person that holds the permit.
    Mr. Galvin. And their heirs.
    Mr. Vento. And their heirs?
    Mr. Galvin. Yes.
    Mr. Vento. Well, that--I mean, we would be--in other words, 
this would practically mean an annual payment, would it not, 
for a pretty long time?
    Mr. Galvin. We would manage the grazing very much the way 
BLM has been managing. This is a small corner of a larger 
grazing plot.
    Mr. Vento. How many AUMs are we talking about?
    Mr. Galvin. Pardon me?
    Mr. Vento. How many AUMs are we talking about?
    Mr. Galvin. I do not know that. I would have to supply that 
for the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Galvin. But it is not a grazing allotment on its own. 
It is part of a larger allotment.
    Mr. Vento. Well, I understand that but, I mean, I guess I 
am wondering how important this is in terms of the precedent 
that would be set here. You have other situations like this, 
where you have the current permittee and their heirs, pardon 
me?
    Mr. Galvin. Well, Great Basin comes to mind. I am not sure. 
Certainly the existing grazing in Great Basin was allowed by 
law, and whether or not the heirs were allowed, I do not know. 
There is a good prospect that this, that the value of this 
permit, will be purchased with donated funds in the near 
future. Negotiations are under way.
    Mr. Vento. You cannot under the law, the staff advises me, 
that you cannot sell or transfer, so there are limits under the 
law in terms of that type of initiative. Of course, we are 
making law here, so I guess we need to clarify under the Taylor 
Grazing Act if you could, that this would be definite.
    Mr. Galvin. If that is the case, we do, yes.
    Mr. Vento. Well, anyway, I think it is interesting. I 
expect the AUMs--I mean, this is a desert area, is it not?
    Mr. Galvin. Yes, this is not a big deal, I think. The 
overall allotment may be big but----
    Mr. Vento. Well, I do not think it is a big deal either in 
terms of, probably, the amounts of money and so forth, but I 
think the problem is that it sets up a procedure which may be 
of concern. So I would expect that you might want to look at 
that a little closer and try to resolve that issue.
    Mr. Galvin. We can work with Committee staff to clarify 
that.
    Mr. Vento. Thank you, Mr. Chairman.
    Mr. Hansen. The time for the gentleman is expired. The 
gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. I want to just thank 
our witnesses from the Federal Government. I appreciate your 
comments and I have no further questions.
    Mr. Hansen. The gentleman from North Carolina, Mr. Jones. 
No questions. The gentleman from Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, and thank you for 
allowing me to sit up and ask a few questions here today up on 
the dais here.
    Mr. Galvin, on the road H-58 there, if the Park Service was 
to receive the 17-mile portion from the Alger County Road 
Commission--that is the portion that lies within the park--it 
is my understanding that there would not need to be any 
legislation; that could merely be deeded over to the Park 
Service, is that correct?
    Mr. Galvin. Just the portion inside the park, that is 
correct. We could take the road, if the county offered it, we 
could take it without legislation for that portion inside the 
park.
    Mr. Stupak. If that was to occur and you received it, and 
you mentioned the IST authorization, I believe, in your 
testimony. You said if you were able to get $161 million out of 
the IST reauthorization, then, of course, you would look to 
upgrade to the tune of $5.6 million. So anything you would do 
if it was deeded to you would depend on IST authorization?
    Mr. Galvin. Well, there are actually three sources of funds 
we would look to. One is we would need a certain amount of 
funds which are outlined in the testimony simply for the annual 
operation of the road, and some minor improvements would be 
possible through that. In addition, we have maintenance funds, 
cyclic maintenance and repair/rehabilitation money, available 
to us that would allow us to make certain improvements to the 
road up to about $250,000 a year; but the major improvements to 
the road with those Highway Trust Fund moneys, probably in a 
phased fashion over a couple of years, yes, and that critically 
depends on the reauthorization of the bill, I might say.
    Mr. Stupak. So where we are at is basically whether or not 
the appropriations come through and where this would fall on 
the Park Service priority list.
    Mr. Galvin. Yes, with respect to the Trust Fund money, it 
is really more the latter than the former because once IST is 
reauthorized, no further appropriation is required. We simply 
have a set of priorities for the system as a whole and repair 
and rehabilitate roads against that priority.
    That is why the amount is so critical. At $82 million, 
obviously, we are going to do about half as much work as at 
$161.
    Mr. Stupak. Well, is it the Park Service's intent, then, to 
leave this at sand and gravel, which costs about $190,000 a 
year, or is it your intent to pave it, which would only cost 
you about $23,000 a year to maintain?
    Mr. Galvin. It is our intent to upgrade the road. If the 
road comes to us, it is clearly our intent to upgrade it and 
from that point on it is just a matter of how quickly the money 
comes through the various sources available to us.
    Mr. Stupak. And would you agree with me that if we do not 
take care of the rest of H-58, especially the parts over by 
Kingston Lake and some of other parts which lie outside the 
Park Service, that people could not even access the Park 
Service unless we do something with the rest of this road? 
Because the part by Kingston Lake is the part where the Alger 
County Road Commission says it is in such bad shape, ``we are 
just going to close it.''
    If we close it, no one is going to have access, then, 
correct?
    Mr. Galvin. That is right. Certainly not from the west 
side, but clearly there is a relationship between the condition 
of the rest of the road and the access to the park. I would 
have to grant you that. The question here is whether or not the 
county commissioners, through other Federal programs or through 
state programs, as they have with other parts of the road, are 
able to improve the road using other sources of funds.
    Mr. Stupak. You would agree with me that to have access to 
certain parts of this park the only way you could get there is 
H-58.
    Mr. Galvin. That is right, um-hum.
    Mr. Stupak. And the Park Service certainly has used H-58 
for the last 30-something years without any compensation to the 
Alger County Road Commission.
    Mr. Galvin. That is right.
    Mr. Stupak. OK. And you would also agree with me that--and 
I think you said in your verbal testimony--that in the past we 
have used Park Service funds to upgrade and fix roads outside 
the Park Service so there would be access to it, and I think 
you mentioned Yellowstone, but was there not one on the East 
Coast, too, that we did the same thing?
    Mr. Galvin. There have been a couple of authorizations in 
Indiana Dunes and Cuyahoga, but I do not think they have ever 
worked, actually. I am not entirely familiar with the history 
of them. It is relatively rare for us to work on roads outside 
parks but there are at least a couple of precedents.
    We maintain the Bear Tooth Highway, which is outside of 
Yellowstone but largely on Forest Service property, so the 
title to the road is probably in the United States at any rate. 
I would not say there are no precedents but it is rare for us 
to work on roads outside of park boundaries.
    Mr. Stupak. But what if we--and just curiosity here--but 
what if we just said, ``Let us deed all of the 48 miles of H-58 
to the Park Service''? Then you would be required to take care 
of it, right?
    Mr. Galvin. That is right. If you--I mean, if it was 
authorized that way, that is correct.
    Mr. Stupak. And then we would not need legislative 
approval, would we?
    Mr. Galvin. Oh, no, no. No. You mean, if the----
    Mr. Stupak. I almost had you.
    Mr. Galvin. Well, if it were done by the county, we could 
only accept the roads inside the park.
    Mr. Stupak. Correct. Without legislative approval, correct.
    Mr. Galvin. Yes, yes.
    Mr. Stupak. I thought I would just try you, that is all. 
Thank you.
    Mr. Hansen. Thank you. The gentleman from Georgia, Mr. 
Bishop.
    Mr. Bishop. Thank you. Let me just express my appreciation 
to the Committee for allowing me to sit on the dais. I do not 
have any questions. I think that our position is pretty much 
set forth on H.R. 1714 and I just request the Committee's 
indulgence and your assistance in getting this expeditiously 
accomplished.
    Mr. Hansen. Well, thank you for joining us today. As I look 
at this map on Arches, I understand that the BLM would be 
urging the Park Service to manage this as a wilderness area, is 
that right?
    Mr. Galvin. That is correct. Wilderness study area, 
actually, Mr. Chairman.
    Mr. Hansen. A wilderness study area.
    Mr. Galvin. This is----
    Mr. Hansen. Well, yes, we are going to get around to 
someday doing the park wilderness, which you folks in the Park 
did a very good job on in 1976, as I recall.
    Mr. Galvin. None of this is legislated wilderness, I do not 
believe. Not in Arches and not----
    Mr. Hansen. No, it is not. Is this a WSA that we are 
looking at?
    Mr. Galvin. Yes, um-hum.
    Mr. Hansen. How do people come into this WSA if they are 
coming in through BLM ground? Mat, how do they do that?
    Mr. Millenbach. They would have to come in through the top 
but my understanding is that the primary access to this 
property, this canyon, is through the national park.
    Mr. Hansen. So the park is the easy access if you want to 
get into this area.
    Mr. Millenbach. Yes, sir.
    Mr. Hansen. If you did not come in through the park, what 
do you do? Come from Moab?
    Mr. Millenbach. I am not sure how you get around there. You 
go through that rough country up on the top.
    Mr. Hansen. You make one heck of a drive on dirt roads if 
you were to come into that area. So the proposal basically is 
if we add this area, that there would be--you would manage it 
as a wilderness area, or WSA, excuse me----
    Mr. Galvin. Um-hum.
    Mr. Hansen. [continuing] and there would be trails. As I 
understand there are presently trails into this area that the 
Park Service has managed in that manner, is that correct?
    Mr. Galvin. That is correct.
    Mr. Hansen. So if you----
    Mr. Galvin. And as Mat said, the principal access to this 
area right now is through the park, and one of your next 
witnesses, Mr. Ed Norton, just spent a day hiking in there, so 
he can----
    Mr. Hansen. What is in there that is distinguishing? You 
know, the thing that bothers me about a lot of these things is 
we--what is a distinguishing feature that is worth doing this 
for? For example, everybody knows Rainbow Bridge is a national 
monument and has a distinguishing feature. Everybody knows that 
Jensen is dinosaurs, and everybody knows that the Golden Spike 
is a railroad; but nobody knows what the National Escalante 
Staircase is made for because we have a poll now across America 
saying, ``Can anyone give us a distinguishing feature?''
    I admit, having been very familiar with that ground, that 
Fifty-Mile Mountain is somewhat distinguishing, but probably 
you can find areas in Arizona, Nevada, and New Mexico, and West 
Virginia that has as much as that.
    What is distinguishing in Mr. Cannon's bill that is worth 
doing this for?
    Mr. Galvin. Well, first, and I think as Mr. Cannon pointed 
out in his opening remarks, the current boundary is artificial 
in that it was drawn arbitrarily and divides canyons in half, 
basically. The upper end of these drainages all wind up in 
Arches.
    In addition, the lower portion of the canyon system is 
already within park boundaries. The addition is a logical 
extension since the upper and lower canyons are of the same 
outstanding quality. It is an intricately eroded system of 
multicolored and--sandstone canyons with high walls, arches, 
domes, alcoves, and amphitheaters. It contains seven documented 
arches, including Covered Arch. There are nearly vertical, 
narrow, slick rock canyon walls several hundred feet high.
    So the quality of the features inside this addition is 
virtually the same as what is in Arches right now, and it is in 
the same canyons.
    Mr. Hansen. So the Administration feels that this is worth 
doing, that there is very fine features that people would enjoy 
seeing, and all that type of thing, is that right?
    Mr. Galvin. Absolutely.
    Mr. Hansen. How far is it? If I wanted to hike into that 
area, how far is the hike?
    Mr. Galvin. I would have to provide that. I would be making 
it up if I told you. It does provide a kind of hiking 
experience that is not available in Arches right now.
    As you know, most of Arches is relatively close to a road 
system. This provides a new kind of visitor experience for 
Arches, I believe.
    Mr. Hansen. How do we keep it from being messed up, like 
the monument is now being messed up? Do you know what they call 
a monument in Escalante? They call it ``Toilet Paper City,'' 
and that is just basically, excuse me for being crude, but that 
is what it is has turned into, that. How do you keep this one 
from being messed up?
    Mr. Galvin. Well, we do not propose to develop this 
portion, this addition, of the park. This will be entirely 
accessed through trail systems and we will police them the way 
we do in the national park right now.
    Mr. Hansen. Any further questions for this panel regarding 
any of the bills that we are talking about?
    Mr. Vento. Mr. Chairman, I just wanted to comment on the 
section 8 of the Arches bill. It is my understanding that, is 
there a land that is already selected there? Is there a single 
parcel in terms of a school section, 600 and--apparently it is 
639 acres, it is identified here as, but it is a single 
section, is that right, that is within the addition to Arches, 
Mr. Millenbach?
    I know you are not here to testify about that, but.
    Mr. Galvin. There are 32 acres of a school section in the 
proposed exchange, in the proposed addition, and I will let Mat 
talk about the exchange.
    Mr. Vento. Well, I do not know. I was under the--it said 
``a parcel of state school trust lands.'' It is only 32 acres?
    Mr. Millenbach. I believe so. Well, the addition to the 
park would encompass 32 acres. What this provision would do, it 
would allow the direct trade of one section of state trust 
lands for one section of BLM lands.
    Mr. Vento. So there are no appraisals that have been done 
on the lands being exchanged yet the bill says that they are of 
equal value.
    Mr. Millenbach. They are approximately equal, yes, sir.
    Mr. Vento. There are no appraisals so how do we--are you 
just judging from the--how did you arrive at that particular 
conclusion?
    Mr. Millenbach. Well, we have taken a look at a number of 
parcels, and this is a piece of property, the Federal property, 
is a piece of property that our staff in the field felt was as 
close to this as they could find. If you were to go out and do 
an appraisal, you know, you probably would find some 
differences. What the term ``approximately equal'' means is 
that we think that it is fairly close based on our initial 
estimates.
    Mr. Vento. And so this is--you obviously have concerns 
about the 180-day provision in here, is that correct? Mr. 
Galvin spoke of that.
    Mr. Galvin. The provision of the exchange is, I believe, to 
provide an incentive to make the exchange to get the addition 
done. I think that is----
    Mr. Vento. I assume that the issue here is that the 
appraisals would cost the additional delay, and be costly, and 
apparently the Department, or the agencies, are saying it is 
not necessary, is that right?
    Mr. Galvin. That is correct.
    Mr. Vento. I mean, so that is the issue, that the 
appraisals are not necessary, Mr. Millenbach, is that correct?
    Mr. Millenbach. Yes, sir. That is correct.
    Mr. Vento. I mean, that is the issue. So, I mean, I just 
wanted to raise that. But, in other words, you are taking 32 
acres from within the addition and, you know, 600 acres or 610 
acres from outside the addition in order to make a section 
change, a complete section change.
    Mr. Millenbach. Yes. That is right.
    Mr. Vento. So would you like additional authority to deal 
with Escalante Grand Staircase in this legislation? Take care 
of those school sections there that are denying the children of 
Utah their educational opportunities.
    Mr. Galvin. We are not here to testify.
    Mr. Hansen. I do not think we want to get into that today; 
however, if you would like to open that subject up I am more 
than happy to discuss it with anybody. I am willing to debate 
anybody in the United States on that issue.
    Mr. Vento. Thank you, Mr. Chairman----
    Mr. Hansen. I thank the two panel members. We appreciate 
you always coming up and your great testimony. Thank you so 
very much.
    The last panel is basically on H.R. 2283, the expansion of 
Arches. One panelist is Mr. Ed Norton, Vice President--Law and 
Public Policy of the National Trust for Historic Preservation; 
and Mr. Groene, the able spokesman and Director of the Southern 
Utah Wilderness Alliance.
    If those two gentlemen would like to come up, we appreciate 
your being with us, Mr. Norton and Mr. Groene. You get 5 
minutes each. Please stay within your time. If something is 
burning in your bosom and you have to go over a little bit, I 
am more than happy to let you do that. Do not go too far over, 
however.
    Mr. Norton, we will turn to you, sir.

STATEMENT OF ED NORTON, VICE PRESIDENT--LAW AND PUBLIC POLICY, 
            NATIONAL TRUST FOR HISTORIC PRESERVATION

    Mr. Norton. Thank you very much, Chairman Hansen, and thank 
you for the opportunity to testify here today on H.R. 2283.
    I am testifying as a member of the Board of Trustees of the 
Grand Canyon Trust, a regional organization headquartered 
Flagstaff, Arizona, with offices in St. George and in Moab.
    I would like to begin my testimony by saying that I had a 
wonderful opportunity to spend an entire day with the National 
Park Service and with Bill Heddon, who also works for the Grand 
Canyon Trust and is a former Grand County Commissioner, hiking 
all through Lost Spring Canyon. It is a wonderful experience, 
absolutely spectacular area, qualifying in every sense as an 
addition to our national park system; beautiful alcoves, 
arches, walls, and what really impressed me, although this was 
the middle of August on a very hot day, was the riparian areas 
and the springs and seeps that are within Lost Spring Canyon.
    So we are here to testify in support of H.R. 2283 and the 
addition of Lost Spring Canyon to Arches National Park, and I 
am testifying also on behalf on the National Parks and 
Conservation Association, which also supports the proposal.
    As you may know, Lost Spring Canyon was actually 
recommended for addition to Arches National Park in NPCAA's 
park boundaries, where to draw the line, which 10 years ago 
was, I think, a very definitive study of additions and 
adjustments to the national park boundaries. Just let me 
summarize the testimony very quickly.
    We are in favor of this proposal because, as Denis Galvin 
just testified, it really rationalizes and establishes 
boundaries for where Arches National Park that conform to 
natural systems and to ecosystem management.
    Secondly, it does provide a mechanism for the retirement of 
the grazing permits. I am sorry Mr. Vento left because I would 
like to announce today that we actually have a definitive 
agreement with the grazing permittee to retire that portion of 
the grazing allotment that would be within the national park, 
and I do not actually know of any legal prohibition that once 
it becomes a national park, that that grazing permit cannot be 
permanently retired. We will certainly be glad to work with the 
Subcommittee staff to look into that, but I am told by the 
people in Moab that we have a definitive agreement to retire 
those permits.
    I think the subject of the land exchange has been very 
adequately covered by the two witnesses from the 
Administration.
    I think that the principal reason for doing this is that it 
does rationalize the management; it would eliminate the primary 
impact in the area, or at least right now, which is grazing; 
and I think that it would provide a system for managing the 
recreational use.
    I spent this day in Lost Spring Canyon and then another day 
in Arches, and then another day in Canyonlands National Park. I 
think the way the Park Service manages these areas for 
recreation and a wide variety of visitor impacts is 
commendable, to say the least. I certainly saw no evidence of 
``toilet paper'' in either Arches or the 6 days I spent in 
Canyonlands, and I think that generally the Park Service 
management of these areas is really fantastic and deserves our 
commendation and support.
    I recognize the fact that there are larger issues involved 
here. I think that the--certainly we would support the 
recommendation for wilderness management for this area by the 
Park Service. I think that this is a case of an addition to the 
National Park Service that is good, and that we should not let 
the perfect--there are larger land issues in Utah that need to 
be resolved but we should not let the perfect be the enemy of a 
very good proposal. Thank you very much.
    [The, prepared statement of Mr. Norton follows:]

   Statement of Edward Norton, Board of Trustees, Grand Canyon Trust

    Mr. Chairman and members of the committee, I appreciate 
this opportunity to speak in favor of the proposal to expand 
Arches National Park by adding the system of canyons 
collectively referred to as Lost Spring Canyon. The Grand 
Canyon Trust, a regional conservation group with offices in 
Flagstaff, Arizona, and Moab and St. George, Utah, believes 
that this legislation (H.R. 2283) will significantly enhance 
Arches by adding 3,140 acres of biologically rich and 
scenically spectacular canyons that should always have been 
part of the park.
    The National Parks and Conservation Association also 
endorses this testimony. NPCA recommended inclusion of Lost 
Spring Canyon into National Park in the 1988 report Park 
Boundaries: Where to Draw the Line.
    We consider several provisions of the bill to be noteworthy 
conservation gains. First, experience at national parks 
throughout the system has demonstrated difficult, unforeseen 
problems that arise when administrative boundaries do not 
coincide with natural ones. This bill redraws the Arches 
boundary around all of the canyons draining into the park from 
the northeast, and establishes a boundary based on the 
ecosystem rather than an artificial grid. Long term management 
of these canyons and riparian areas will be much more coherent 
as a result.
    Second, the legislation provides a mechanism to retire 
livestock grazing from these fragile desert wetlands and 
riparian areas. The Grand Canyon Trust has been negotiating 
with the grazing permittee, and we are please to announce that 
we have reached an agreement to remove permanently cattle from 
the canyons upon passage of the bill. Benefits to rare riparian 
habitats and marshes will be profound as the area heals from 
decades of heavy grazing.
    Third, a section of State Trust Land lying within a BLM 
Wilderness Study Area at the head of Fish Seep Draw will be 
exchanged for a parcel of BLM land in a known oil and gas area 
northwest of Moab. In this arrangement, an unusable asset of 
the School Trust, on which any development poses a threat to 
wild lands, will be converted to a potentially valuable asset 
in an already developed area. Moreover, the exchange 
establishes a positive and constructive precedent for the 
exchange of state and Federal land in Utah.
    Some organizations oppose H.R. 2283 and expansion of Arches 
National Park, preferring to see these canyons and the uplands 
of Winter Camp Ridge and Dome Plateau designated as BLM 
Wilderness Area. We agree that such wilderness protection is 
highly desirable for the uplands of this unit. However, in 
well-known canyons pressed against a national park and listed 
in every guide book--canyons that can be reached by a short 
hike from the Delicate Arch parking lot with its half million 
annual visitors--BLM Wilderness designation is not necessarily 
the best management regime. Clearly, the largest current impact 
to the area is from grazing, which the park expansion proposal 
in H.R. 2283 addresses and which Wilderness designation does 
not address. The largest future impact (park expansion 
notwithstanding) will be from human recreational use, which the 
National Park Service is specially organized to manage.
    Opponents of H.R. 2283 who argue that it is bad policy and 
precedent to break a single proposed wilderness unit into 
pieces with different legal mandates have lost sight of the 
fact that much of the canyon system is already part of Arches, 
and is most easily accessed from the park. In contrast, access 
for Bureau of Land Manage-

ment personnel requires a 55 mile one way trip from Moab, half 
on dirt roads, at the end of which one is still atop the 
vertical canyon rim, hundreds of feet above the canyon floor. 
The sensible way to consolidate management is to add all the 
canyons to the park, as this bill proposes to do, and leave the 
uplands in BLM management.

    Mr. Hansen. Thank you, Mr. Norton. Mr. Groene.

STATEMENT OF SCOTT GROENE, ISSUES DIRECTOR, SOUTHERN WILDERNESS 
                            ALLIANCE

    Mr. Groene. First, Representative Hansen, I would like to 
thank you for promoting me to Director, but I think I had 
better correct that in case the word gets back to our real 
director in Salt Lake City.
    Mr. Hansen. Mr. Groene, all I can do is read what they put 
in front of me here.
    Mr. Groene. No, no, I appreciate it, thank you. I am just 
afraid I had better not accept it.
    Mr. Hansen. That is all right. If I had the power to 
promote you, I would be happy to do it.
    Mr. Groene. Thank you. My name is Scott Groene. I am the 
Issues Director with the Southern Wilderness Alliance. Today I 
am also testifying on behalf of the Sierra Club, the Wilderness 
Society, and the Western Ancient Forest Campaign.
    We all agree that this is a spectacular area. It is a grand 
chunk of land, but there is another issue here which this 
Committee is intimately familiar with, which is the wilderness 
debate on BLM land in Utah. As we are all aware, there are 
proposals out there from 0 to 16 million acres; legislation has 
been introduced in the House--at least two forms. The groups I 
testify on behalf of today support H.R. 1500, which would 
protect 5.7 million acres.
    There are 16,000 acres that are proposed for wilderness in 
the land that would be affected by this proposal for the Lost 
Spring Canyon unit. We are concerned that this is a step toward 
breaking the wilderness debate into small pieces, and we think 
the way to resolve the wilderness issue in Utah will be in a 
comprehensive fashion rather than addressing individual units, 
and that this bill would be a mistake to the extent that it 
would only protect about 3,000 acres of a much larger area.
    This is one of our primary concerns and the reason we 
oppose the legislation. The other reason is a difficult issue. 
Perhaps 10 years ago we might have felt differently about this 
bill, but we have learned a lot from history and it is a 
problem that faces the public land managers in Southern Utah, 
which is simply the explosion of recreational growth. No place 
has become a focus of that more than the area of Moab, which, 
of course, includes Arches National Park.
    Arches is a place that Ed Abbey described as a lonely place 
30 years ago in ``Desert Solitaire.'' It is no more. It is now 
a mecca for recreation. It has international and national 
visitation.
    The Park Service has struggled to keep up with the 
visitation of this area. They have closed the Fiery Furnace. 
You cannot hike there any more without a National Park Service 
ranger. There is not enough parking in the park. They have gone 
out to do studies to try to determine whether the level of use 
is too much for people to enjoy the area any more. You cannot 
find a campground there many days. It is a front-country park. 
It does not have designated back-country trails or campsites. I 
called last week to say, ``If I wanted to go backpacking in 
Arches, can I go somewhere?'' And the person said, ``You ought 
to go down to Canyonlands instead.''
    Now, the Lost Spring Canyon area, on the other hand, is 
simply a quiet place that up until now only Moab residents knew 
about it, and we simply think that given the history of use 
that we need to take a different approach with this. We are 
concerned that if we add this little piece to Arches, that when 
someone walks in the door, like me, and says, ``I want to go to 
the back country,'' they will send me to this canyon system 
that would not see this use otherwise. It is simply a problem 
of taking a pretty lonely place and sticking it onto a very 
heavily used park that does not have a back-country area right 
now. What we are liable to do is end up creating probably the 
biggest problems this area may face, which is too much 
recreation, and it is just sort of an inescapable problem.
    I do not know how much use it would generate. But this area 
is mostly now in a wilderness study area, this is perhaps the 
greatest threat it faces, just simply too many people. By 
adding it to the park we may create that problem.
    We think the bill should be amended so that if the area is 
transferred to the Park Service that the area grazing should be 
terminated. The language could be clarified on the pipeline 
just to ensure that the Park Service does have the discretion 
to protect the area from undue and unnecessary degradation 
while recognizing the rights of the pipeline company.
    Another question is whether the WSA would remain in effect 
when it comes into Park Service jurisdiction. We think it 
would, that under FLPMA WSAs remain in place unless Congress 
determines otherwise. We do not see WSA release language in the 
bill so it is our understanding that is the intent of the bill 
not to extinguish the WSA.
    Thank you for your time. I appreciate the chance to be here 
today.
    [The statement of Mr. Groene follows:]

      Statement of Scott Groene, Southern Utah Wilderness Alliance

    My name is Scott Groene, I'm a staff attorney and issues 
director for the Southern Utah Wilderness Alliance, a 25,000 
member organization dedicated to the protection of the 
wilderness and natural environment of southern Utah, including 
that which would be affected by this bill. Today I'm testifying 
on behalf of SUWA, The Wilderness Society, and the Western 
Ancient Forest Campaign.
    We oppose H.R. 2283 for the following reasons.
    H.R. 2283 would increase the size of Arches National Park 
by adding Bureau of Land Management lands that have been 
proposed for wilderness protection. The bill would add 3,140 
acres in the Lost Springs area to Arches, a significant portion 
of which is currently protected as a Wilderness Study Area.
    As this subcommittee is aware, there are numerous proposals 
for protecting Utah BLM wilderness, ranging from approximately 
2 million acres to 16 million acres. The organizations I speak 
for today support H.R. 1500, which would protect 5.7 million 
acres of public land wilderness, including 16,900 acres as the 
Lost Spring wilderness.
    If lands are added to the Park, they should be added under 
legislative protection as wilderness. It is unclear from the 
bill language, but we believe the existing Wilderness Study 
Areas (WSA) should remain in effect on transfer of these lands 
to the NPS under the language of FLPMA.
    This bill would cut the proposed Lost Spring Canyon 
wilderness into pieces, leaving some under National Park 
jurisdiction without WSA protection, and apparently some under 
Park jurisdiction with WSA protection. S. 2283 would also leave 
some under BLM jurisdiction with WSA protection, and some 
proposed as wilderness, but without WSA protection and still 
under BLM jurisdiction. This area deserves consistent 
management, not a mixture of mandates under different agencies.
    The proposed boundaries are better than the illogical and 
invisible on the ground section line boundaries that currently 
exist. But they can be made better. The proposal is drawn, from 
the maps we have seen, to run from the existing park boundaries 
to near the edge of cliffs, as to exclude the mesas above. We 
believe this wilderness should be protected by including these 
mesas and all the areas that qualify, and by drawing boundaries 
at the edge of disturbance, for example at the edge of a road.
    This proposal might have appeared to be more appropriate 
only a decade ago. But much has changed since then, and we 
should learn something from this recent history. The Moab area, 
which includes Arches National Park, has become a recreational 
mecca. One of the greatest threats to the natural environment 
there is simply the threat of the lands being ``loved to 
death.'' Perhaps nowhere is this problem greater than at Arches 
National Park. What was described as a lonely place by Edward 
Abbey in Desert Solitaire thirty years ago is now a national 
and international destination. At times, for example, there is 
not enough parking in the National Park. The National Park 
Service has tried to determine with photo studies the extent to 
which overcrowding has despoiled visitors experience. Many who 
have long loved this Park no longer visit during the tourist 
season simply because of the crowding. The Fiery Furnace, a 
popular hiking location has been closed to all visitation, 
unless a NPS guide is present, simply because of the resource 
damage caused by too much visitation. For much of the year, a 
visitor arriving after early morning will not find a campsite 
that night.
    Arches is generally a ``front country'' Park. There are no 
designated backcountry trails or campsites, and very little of 
the Park is open to overnight camping. Last week I called to 
ask about opportunities for backpacking, and I was told by the 
NPS that opportunities were limited in Arches and it might be 
better to go to Canyonlands National Park instead.
    Until recently, the Lost Spring Canyon drainage was little 
known beyond residents of Moab. It was a quiet place, and in 
visits there over the past several years, I never saw another 
person, unless it was someone traveling with me. If this canyon 
system is added to Arches National Park, then it will create a 
backcountry use area that is currently missing from the Park. 
It means every time a visitor walks in and asks if there is a 
place to go backpacking, they will likely end up in this small 
canyon system. The effect of this bill may be that it brings 
recreational crowding, and all of the problems attendant to 
that crowding, to an area that would never faced this problem 
otherwise.
    We are also concerned that the transfer to the National 
Park Service may result in additional development in the area. 
NPS officials have told the media the NPS may want to develop a 
four-wheel drive campground at the edge of the area if the 
transfer occurs. If so, then the area would be better protected 
under existing BLM management.
    The bill should be amended so the grazing permit would be 
terminated for that portion of the allotment placed under 
National Park Service management. As written, the bill would 
allow this use to potentially continue for several more 
decades.
    The bill language should be clarified as to make clear that 
the NPS could regulate the use of the pipeline as to protect 
the Park from undue and unnecessary degradation.
    Thank you for your time.

    Mr. Hansen. Thank you, Mr. Groene. The gentleman from 
American Samoa.
    Mr. Faleomavaega. Thank you. I appreciate the gentlemen's 
testimony this morning. I just have a couple of questions.
    Quite obviously there is a division here even among the 
community-minded environmentalists in the State of Utah, some 
for it and others against it.
    Why just 3,100 acres? Why not 10,000 acres added to the 
park? Are there just as much beautiful areas in the Yellowcat 
Wash, and the Yellowcat Flat, and the Molly Hogans, or some of 
those areas that could also be designated as part of the park 
system?
    Mr. Norton, maybe.
    Mr. Norton. Well, I think that the primary reason for the 
focus on this particular 3,100 acres, Congressman, is that 
there is a na-

tional logic to the fact that Arches is primarily a system of 
these canyon systems, and that this is one of the major canyons 
leading into the Arches from the Northeast, and there is a 
natural logic to this. That is not to say that other areas 
might not qualify for, also, for addition to Arches, but, 
again, I would not let the perfect be the enemy of the very 
good.
    This is a good proposal, and Congressman Cannon has 
proposed it, and I think we should go ahead and do it.
    Mr. Faleomavaega. Mr. Groene?
    Mr. Groene. It would be beneficial to take the boundaries 
and move them back to the edge of disturbance in this area, 
which is generally dirt roads and some uranium mining, and 
protect all of the wilderness in the area.
    The boundaries now are drawn to the edge of the cliffs. 
There are a couple of the canyons that would be cutoff midway 
with a line just running across the center of the canyon. We 
say drop it back to the edge of the disturbance to protect all 
the canyons in that area.
    Mr. Faleomavaega. I sense from your statement, Mr. Groene, 
that the concern now on behalf of your organization is that 
there are too many people visiting the park. Is that----
    Mr. Groene. I would guess that the Park Service would 
probably agree. It is an ongoing challenge to try to deal with 
the heavy use of the area.
    Mr. Faleomavaega. Mr. Norton?
    Mr. Norton. I am not quite sure that I understand the logic 
of that, and I respectfully disagree. If the problem at Arches 
is sort of too many people and lack of a back-country 
experience, this proposal would give people a back-country 
experience, and as in every other unit of the national park 
system, that level of use can be managed through a back-country 
permit system, and the fact that the area is added, and is, in 
fact, managed as wilderness, does not mean that inexorably that 
there is going to be overuse.
    The Park Service manages back country and back-country 
wilderness in many, many other units of the national park 
system. I just spent the weekend hiking down in Shenendoah 
National Park and I could not get a, you know, a back-country 
permit. The fact is, I had to get a permit just to hike up Old 
Rag. You can manage the level of use without, you know, 
adversely affecting the area.
    Mr. Faleomavaega. My impression from Mr. Groene's statement 
is that backpackers are not having a fun time visiting the 
national parks. Is this my understanding of my concerns, Mr. 
Groene?
    Mr. Groene. Well, right now Arches is a small, front-
country park that is just not used----
    Mr. Faleomavaega. What is the total acreage of the national 
park involved?
    Mr. Groene. Seventy thousand acres, approximately.
    Mr. Faleomavaega. Seventy thousand acres?
    Mr. Groene. And most of the use is different than other 
parks. Representative Cannon mentioned Canyonlands National 
Park, which sees a lot of day hiking and back country. Arches 
tends to be a front-country park. People see it through the 
windshield or through short hikes on hardened trails.
    Mr. Faleomavaega. At this point, outside of the national 
park boundaries, you can do backpacking to the Cottonwood Wash 
and to the Lost Spring Canyon as backpackers? You do this right 
now?
    Mr. Groene. Yes.
    Mr. Faleomavaega. Around how many backpackers do this each 
year?
    Mr. Groene. I do not know the numbers but I would guess it 
is very little. The times I have been in this area I have never 
seen anyone else there.
    Mr. Faleomavaega. And you want to maintain that status of 
being very little in terms of the number of people that should 
backpack in the wilderness area.
    Mr. Groene. Our position is simply that the agencies in 
this area are struggling to deal with high recreational use. 
Adding this piece to the park may increase that problem.
    Mr. Faleomavaega. Well, I am a little confused here. Mr. 
Chairman, thank you.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Gibbons.
    Mr. Gibbons. I have no questions, Mr. Chairman.
    Mr. Hansen. The gentleman from Michigan.
    Mr. Kildee. I have no questions, Mr. Chairman, thank you.
    Mr. Hansen. The gentleman from Utah, the sponsor of the 
bill, Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. I would like to thank 
our witnesses. I appreciate your support, Mr. Norton. The 
issues raised by Mr. Groene are issues of serious concern and 
we have tried to balance those.
    I would just like to say in response to one item that I 
believe that this is a unique situation, that there are not 
many other Arches National Parks which are missing pieces that 
would affect the wilderness debate, and we have approached the 
debate as a unique piece rather than a concerted, broad-based 
plan.
    But I appreciate your testimony. Thank you very much. Thank 
you, Mr. Chairman.
    Mr. Hansen. I am having a hard time with figuring out the 
logic on this thing. On the one hand it is now managed by BLM 
as a WSA. It will then be managed by the Park, but it is the 
same land, just different managers, is that right?
    Mr. Groene. My understanding.
    Mr. Hansen. Why would it create more interest just because 
we now put it into managed by the Park? We are not putting road 
in the middle of it, we are not putting a visitors' center, we 
are not putting a fly over provision. We are just saying that 
it now comes under the National Park Service, and they will 
probably have interpretive things that go along with that but I 
cannot understand why there would be more people now just 
because it is a park.
    I do see the difference of when BLM is turned into a park 
or turned into a monument. People come to see it, find out what 
this is that they want to see, but I cannot understand that. 
What am I missing here?
    Mr. Groene. It is a mysterious thing why, when it is in a 
national park, people go to see it, when if it is just the same 
gorgeous land on the other side of the line they do not. As I 
think many of us know in Utah if you just step on the other 
side of that line, you will not see people. Part of the effect 
is a large number of people that come to the state want to see 
the national parks do not realize the adjacent BLM can be just 
as gorgeous. There is also the effect of when someone calls 
Arches or walks through the front door and says, ``I want a 
back-country hike,'' because the park does not have that 
opportunity now those people would be directed to this area by 
the staff.
    Mr. Hansen. Well, I guess I have not quite caught that, but 
I do appreciate both of you coming. You have been very kind. 
Your testimony was fine. I would assume that this bill will 
move forward; however, it just seems that I cannot see any 
really strong objection to your bill, Mr. Cannon.
    But it is up to you folks. If you want to rally and do your 
best, by all means have at it.
    This will conclude this hearing on these four pieces of 
legislation and we will now look for mark-up on these bills, if 
that is the wishes of the Congress and the sponsors of the 
bill.
    Thank you to everyone for being here.
    [Whereupon, at 11:14 a.m. the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5531.001
    
    [GRAPHIC] [TIFF OMITTED] T5531.002
    
    [GRAPHIC] [TIFF OMITTED] T5531.003
    
    [GRAPHIC] [TIFF OMITTED] T5531.004
    
    [GRAPHIC] [TIFF OMITTED] T5531.005
    
    [GRAPHIC] [TIFF OMITTED] T5531.006
    
    [GRAPHIC] [TIFF OMITTED] T5531.007
    
    [GRAPHIC] [TIFF OMITTED] T5531.008
    
    [GRAPHIC] [TIFF OMITTED] T5531.009
    
    [GRAPHIC] [TIFF OMITTED] T5531.010
    
    [GRAPHIC] [TIFF OMITTED] T5531.011
    
    [GRAPHIC] [TIFF OMITTED] T5531.012
    
    [GRAPHIC] [TIFF OMITTED] T5531.013
    
    [GRAPHIC] [TIFF OMITTED] T5531.014
    
    [GRAPHIC] [TIFF OMITTED] T5531.015
    
    [GRAPHIC] [TIFF OMITTED] T5531.016
    
    [GRAPHIC] [TIFF OMITTED] T5531.017
    
    [GRAPHIC] [TIFF OMITTED] T5531.018
    
    [GRAPHIC] [TIFF OMITTED] T5531.019
    
    [GRAPHIC] [TIFF OMITTED] T5531.020
    
    [GRAPHIC] [TIFF OMITTED] T5531.021
    
    [GRAPHIC] [TIFF OMITTED] T5531.022
    
    [GRAPHIC] [TIFF OMITTED] T5531.023
    
    [GRAPHIC] [TIFF OMITTED] T5531.024
    
    [GRAPHIC] [TIFF OMITTED] T5531.025
    

</pre></body></html>
